<html>
<title> - OVERSIGHT OF THE FEDERAL BUREAU OF INVESTIGATION</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                           OVERSIGHT OF THE 
                    FEDERAL BUREAU OF INVESTIGATION

=======================================================================

                                HEARING

                               BEFORE THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 13, 2013

                               __________

                           Serial No. 113-32

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov



                  U.S. GOVERNMENT PRINTING OFFICE
81-462                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="91f6e1fed1f2e4e2e5f9f4fde1bff2fefcbf">[email&#160;protected]</a>  

                       COMMITTEE ON THE JUDICIARY

                   BOB GOODLATTE, Virginia, Chairman
F. JAMES SENSENBRENNER, Jr.,         JOHN CONYERS, Jr., Michigan
    Wisconsin                        JERROLD NADLER, New York
HOWARD COBLE, North Carolina         ROBERT C. ``BOBBY'' SCOTT, 
LAMAR SMITH, Texas                       Virginia
STEVE CHABOT, Ohio                   MELVIN L. WATT, North Carolina
SPENCER BACHUS, Alabama              ZOE LOFGREN, California
DARRELL E. ISSA, California          SHEILA JACKSON LEE, Texas
J. RANDY FORBES, Virginia            STEVE COHEN, Tennessee
STEVE KING, Iowa                     HENRY C. ``HANK'' JOHNSON, Jr.,
TRENT FRANKS, Arizona                  Georgia
LOUIE GOHMERT, Texas                 PEDRO R. PIERLUISI, Puerto Rico
JIM JORDAN, Ohio                     JUDY CHU, California
TED POE, Texas                       TED DEUTCH, Florida
JASON CHAFFETZ, Utah                 LUIS V. GUTIERREZ, Illinois
TOM MARINO, Pennsylvania             KAREN BASS, California
TREY GOWDY, South Carolina           CEDRIC RICHMOND, Louisiana
MARK AMODEI, Nevada                  SUZAN DelBENE, Washington
RAUL LABRADOR, Idaho                 JOE GARCIA, Florida
BLAKE FARENTHOLD, Texas              HAKEEM JEFFRIES, New York
GEORGE HOLDING, North Carolina
DOUG COLLINS, Georgia
RON DeSANTIS, Florida
JASON T. SMITH, Missouri

           Shelley Husband, Chief of Staff & General Counsel
        Perry Apelbaum, Minority Staff Director & Chief Counsel


                            C O N T E N T S

                              ----------                              

                             JUNE 13, 2013

                                                                   Page

                           OPENING STATEMENTS

The Honorable Bob Goodlatte, a Representative in Congress from 
  the State of Virginia, and Chairman, Committee on the Judiciary     1
The Honorable John Conyers, Jr., a Representative in Congress 
  from the State of Michigan, and Ranking Member, Committee on 
  the Judiciary..................................................     3

                                WITNESS

The Honorable Robert S. Mueller, III, Director, Federal Bureau of 
  Investigation
  Oral Testimony.................................................     5
  Prepared Statement.............................................     9

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Material submitted by the Honorable J. Randy Forbes, a 
  Representative in Congress from the State of Virginia, and 
  Member, Committee on the Judiciary.............................    45


                           OVERSIGHT OF THE 
                    FEDERAL BUREAU OF INVESTIGATION

                              ----------                              


                        THURSDAY, JUNE 13, 2013

                        House of Representatives

                       Committee on the Judiciary

                            Washington, DC.

    The Committee met, pursuant to call, at 10:07 a.m., in room 
2141, Rayburn House Office Building, the Honorable Bob 
Goodlatte (Chairman of the Committee) presiding.
    Present: Representatives Goodlatte, Sensenbrenner, Coble, 
Smith of Texas, Chabot, Bachus, Issa, Forbes, King, Franks, 
Gohmert, Jordan, Poe, Chaffetz, Marino, Gowdy, Amodei, 
Labrador, Farenthold, Holding, Collins, DeSantis, Smith of 
Missouri, Conyers, Nadler, Scott, Watt, Lofgren, Jackson Lee, 
Cohen, Johnson, Pierluisi, DelBene, and Jeffries.
    Staff Present: Shelley Husband, Chief of Staff & General 
Counsel; Branden Ritchie, Deputy Chief of Staff & Chief 
Counsel; Allison Halataei, Parliamentarian & General Counsel; 
Robert Parmiter, Counsel; Kelsey Deterding, Clerk; Perry 
Applebaum, (Minority) Minority Staff Director & Chief Counsel; 
Danielle Brown, Parliamentarian; and Aaron Hiller, Counsel.
    Mr. Goodlatte. The Committee will come to order, and 
without objection the Chair is authorized to declare recesses 
of the Committee at any time. We welcome everyone to today's 
hearing on the oversight of the United States Federal Bureau of 
Investigation. I recognize myself and the Ranking Member for 
opening statements.
    This hearing on oversight of the Federal Bureau of 
Investigation will come to order. We welcome Director Mueller 
to your final appearance before the House Judiciary Committee 
as FBI Director, and we are happy to have you here with us 
today.
    Before we begin, let me take a moment to commend you for 
your successful tenure at the FBI. You took office under 
extremely difficult circumstances. In fact, you were confirmed 
1 week before September 11, 2001, and the attacks on New York 
City and Washington, D.C. During your 12 years as Director, you 
have led the transformation of the FBI from a domestic law 
enforcement agency into a complex intelligence-driven national 
security organization whose primary missions include 
confronting the most significant security threats facing our 
Nation today. You have done the American people a great 
service, and for that you have my sincere gratitude.
    We now know that last week's unauthorized disclosure of 
certain NSA intelligence programs was committed by a 29-year 
old former defense contractor. I know there is little you will 
be able to say about these programs in a public hearing, but I 
and other Members of the Committee believe it is important for 
you to explain to the extent you are able why you believe these 
programs are a necessary part of America's counterterrorism 
operation.
    I also believe the recent reports regarding the NSA 
programs illustrate this Administration's ongoing problem of 
national security leaks. The Obama administration takes credit 
for having investigated more national security leaks than any 
previous Administration. While this may be true, I am not 
certain whether it is due to a more aggressive investigative 
approach to national security leaks or the simple fact that 
there have been a shockingly high number of leaks in the last 
4\1/2\ years.
    These leaks illustrate the delicate balancing act between 
the need to protect national security information and 
investigate leaks and the need to preserve the First Amendment 
right to freedom of the press.
    Regardless of how some Members of Congress may feel about 
the recently revealed NSA programs, the fact remains that the 
terrorist threat to the United States is ongoing. We were 
reminded of this nearly 2 months ago when the Boston Marathon, 
traditionally a day of celebration, was the target of a 
terrorist attack. Dzhokhar Tsarnaev and his brother, Tamerlan, 
set off twin explosions that killed three people and injured 
more than 250. This attack was a grave reminder, as you warned 
this Committee in 2010, that domestic and lone wolf extremists 
are now just as serious a threat to our safety as international 
organizations, like al-Qaeda.
    I would like to commend the FBI and its State and local 
partners, all of whom worked tirelessly to identify and locate 
the bombers and apprehend Dzhokhar. However, prior to the 
Boston attack, several Federal agencies, including the FBI, 
received intelligence information about Tamerlan. I am 
concerned that inadequate interagency coordination may have 
prevented robust information sharing in this case. It is 
imperative that the Administration and Congress examine this 
matter closely to identify areas in which intelligence 
information sharing can be improved.
    On the subject of counterterrorism, I also look forward to 
hearing from you about the FBI's efforts to investigate the 
attacks on the American consulate in Benghazi, Libya. 
Immediately following the attacks, the Obama administration 
called them a spontaneous response to a video critical of 
Islam. As we all now know, the attacks were, in fact, 
preplanned acts of terror. I am intensely concerned that the 
Administration's handling of the attacks has hampered the FBI's 
ability to conduct a thorough investigation. As former Deputy 
Chief of Mission Gregory Hicks testified, the Administration's 
mischaracterization of the attacks so angered the Libyan 
government that they prevented the FBI Evidence Response Team 
from traveling to Benghazi for 2 weeks.
    Finally, Mr. Director, I am very interested in hearing from 
you about how the Bureau intends to tighten its belt in a 
responsible manner during this time of fiscal uncertainty. 
Along with Crime Subcommittee Chairman Sensenbrenner, I sent 
you a letter in April asking several questions about the FBI's 
budget and spending priorities, including the FBI's policy to 
provide extensive financial benefits, including paying for all 
laundry and food for the highly paid professionals brought to 
work at FBI headquarters for 18-month stints.
    I appreciated receiving your response last week, but I 
believe this is an area where the FBI and other Federal law 
enforcement agencies are not making the best use of taxpayer 
dollars. I hope to hear what the Bureau intends to do to 
address this issue. I look forward to hearing your answers on 
all of these important topics today, as well as on several 
other issues of significance to the FBI and the country.
    And it is now my pleasure to recognize for his opening 
statement, the Ranking Member of the full Committee, the 
gentleman from Michigan, Mr. Conyers.
    Mr. Conyers. Thank you, Chairman Goodlatte, and I join in 
welcoming the Director of the Federal Bureau of Investigation. 
We gather today at a time when the Nation stands at a legal and 
political crossroad. We are confronted with a seemingly endless 
war that increasingly must be fought in the digital age. And I 
say this not only because of the recent disclosures concerning 
the FBI and the NSA surveillance programs, but because of a 
range of actions that occurred since the attacks of September 
the 11th, 2001.
    It's not a partisan concern, and it is one that applies 
both to the present Administration and to the last one as well. 
Nor is it a concern particularly limited to surveillance 
programs. It extends to our increasing reliance on drones to 
conduct foreign policy and the government's use of the so-
called state secrets doctrine to avoid legal accountability. 
And, yes, in no small part because of the actions of the NSA 
and the Federal Bureau of Investigation, it's my fear that we 
are on the verge of becoming a surveillance state, collecting 
billions of electronic records on law-abiding Americans every 
single day.
    A point the recent disclosure confirmed by the 
Administration that Section 215 of the USA PATRIOT Act is being 
used to engage in a nationwide dragnet of telecommunications 
records. I have, along with many of my colleagues, both 
Democrats and Republicans alike, I've long expressed concern 
that Section 215 fails to impose a meaningful limit on the 
government's ability to collect this type of information. If 
every call is relevant, then the relevance standard we enacted 
into law has little practical meaning.
    Another point is the total secrecy in which surveillance 
operates under the PATRIOT Act and FISA. This secrecy denies 
Congress the opportunity to conduct meaningful oversight and 
prevents the public from holding its government accountable for 
its actions. I concede that it's a difficult and sensitive 
issue to resolve, but that's our job. A free society can only 
be free if it has the informed consent of its citizens. It is 
critical that the public knows how its government treats the 
content of its emails and telephone calls even when it collects 
them by mistake.
    It is true that some Members of the Congress have chosen to 
receive classified briefings about these programs, I among 
them. These briefings, though, often prohibit attendees from 
taking even notes or to even discuss such information with 
anyone else. And with all due respect to my friends in the 
Administration, the mere fact that some Members may have been 
briefed in a classified setting does not indicate our approval 
or support of these programs.
    Indeed, many of us voted against the reauthorization of the 
PATRIOT Act and the FISA Amendments Act, precisely because of 
what we learned in those classified sessions. I agree with 
President Obama about the need to find a way to have a 
responsible conversation about these issues and how we can 
engage all Americans in this debate to a maximum extent 
possible.
    But at a time when no major decision of the FISA Court has 
been declassified, and when the Administration continues to 
rely on the state secrets doctrine to avoid accountability in 
the courts, I must say that we are not yet able to have a more 
public and rational, even if limited conversation. The only way 
to ensure that this critical debate will actually occur is for 
this Committee to achieve an appropriate balance between the 
need for secrecy and the need for informed debate. One way to 
tell that that balance has been tilted too far in favor of 
national security is when individuals in public service have 
legitimate grievances with our government, but feel they have 
no recourse but to leak classified information to the press.
    I don't condone these leaks. I believe that if we fail to 
adjust the concerns at the heart of these controversial 
programs that there will be more leaks. And so, Director 
Mueller, as one who supported the extension of your term as 
Director, and whose integrity I have always held in highest 
regard, we in the end are a Nation of laws and not men. 
Moreover, with all due respect, my considered judgment is that 
the Federal Bureau of Investigation's actions are inconsistent 
with the requirements of the PATRIOT Act and violate the 
fundamental privacy of law-abiding citizens.
    And so I finish where I started. The Congress, and in 
particular this Committee, stands at a crossroad. Every day it 
seems that a new part of the legal architecture put in place to 
fight this war on terror is exposed. The prison at Guantanamo 
Bay is unsustainable. Of the 166 men held there, 86 are already 
cleared for transfer. More than 100 are engaged in the third 
month of a hunger strike. Nearly 2,000 personnel are needed to 
keep the prison functioning.
    Thanks in no small part to the efforts of the Chairman, we 
have begun to explore the legal underpinnings of the 
Administration's drone programs. There is a growing bipartisan 
unease with the notion that the executive branch can kill a 
United States citizen on its own determination that he poses an 
``imminent threat.''
    And with respect to the Section 215 collections exposed 
only last week, it seems clear that the government's activity 
exceeds the authority this Congress has provided, both in 
letter and in spirit. With every new disclosure, another piece 
of the legal architecture put in place after September the 11th 
crumbles.
    And so it is my hope that over the coming weeks the Members 
of this Judiciary Committee can come together and conduct 
meaningful oversight of these programs. Where needed, we should 
pass relevant and credible legislation, just as we did on a 
unanimous basis after September 11.
    Tomorrow morning my colleague Justin Amash and I will 
introduce a bill that will address the overbreadth and 
impenetrability of the surveillance programs. It is not the 
only proposal to address these problems. It should not be the 
only response to the broader questions we face. But it is a 
modest start and I hope that my colleagues will join me. This 
is a time for Members of both sides of the aisle to come 
together and help restore our Nation to its proper role as a 
beacon for civil liberties around the world.
    I thank the Chairman for indulging me additional time to 
make the statement.
    Mr. Goodlatte. The Chair thanks the gentleman.
    Mr. Goodlatte. And without objection, other Members' 
opening statements will be made a part of the record.
    We again thank Director Mueller for joining us today.
    And, Director, if you would please rise, I will begin by 
swearing you in.
    [Witness sworn.]
    Mr. Goodlatte. Let the record reflect that Director Mueller 
responded in the affirmative, and I will now introduce him.
    Our only witness today is Federal Bureau of Investigation 
Director Robert S. Mueller, III, who has led the FBI since 
September 4, 2001. He was first nominated by President George 
W. Bush. In 2011 he was asked by President Obama to remain as 
FBI Director for an additional 2-year term, and that was 
swiftly approved by the Congress.
    Director Mueller has a long and honorable record in public 
service. After graduating from Princeton and receiving a 
master's degree from New York University, Director Mueller 
enlisted as a Marine and served in combat in Vietnam. He 
received a Bronze Star, two Navy Commendation Medals, a Purple 
Heart, and the Vietnamese Cross of Gallantry.
    After his military service, he earned his law degree in my 
home State, at the University of Virginia. Early in his legal 
career, Director Mueller served as a prosecutor in the United 
States Attorney's Offices in both San Francisco and Boston. 
After working as a partner in the Boston law firm of Hill & 
Barlow, Director Mueller returned to the Justice Department in 
1989 as an assistant to Attorney General Thornburgh and later 
as head of the Criminal Division. In 1998, Director Mueller was 
named United States Attorney in San Francisco, a position he 
held until 2001, when he was nominated to be Director of the 
FBI.
    Director Mueller, as your tenure is set to expire this 
year, we welcome you today for one last look and look forward 
to your statement. Please proceed.

 TESTIMONY OF THE HONORABLE ROBERT S. MUELLER, III, DIRECTOR, 
                FEDERAL BUREAU OF INVESTIGATION

    Mr. Mueller. Thank you, and good morning.
    Mr. Goodlatte. You know what, turn on that microphone.
    Mr. Mueller. Good morning, Chairman Goodlatte, Ranking 
Member Conyers, and Members of the Committee. And I thank you 
for the opportunity to appear here today and appear on behalf 
of the men and women of the FBI. And on their behalf let me 
begin by thanking you for your support of the Bureau over the 
11 years that I have been there.
    We live in a time of diverse and persistent threats from 
terrorists, spies, and cyber criminals. And at the same time we 
face a wide range of criminal threats from white-collar crime 
to child predators. And just as our national security and 
criminal threats constantly evolve, so, too, must the FBI 
counter these threats, even during a time of constrained 
budgets.
    Today I would like to highlight several of the FBI's 
highest priority national security and criminal threats. As 
illustrated by the recent attacks in Boston, the terrorist 
threat against the United States remains our top priority. And 
as exhibited by many of our arrests over the past year, we face 
a continuing threat from homegrown violent extremists. These 
individuals present unique challenges because they do not share 
a typical profile. Their experiences and motives are often 
distinct, which makes them difficult to identify and difficult 
to stop.
    At the same time, foreign terrorists still seek to strike 
us at home and abroad. Terrorists today operate in more places 
and against a wider array of targets than they did a decade 
ago. And we have seen an increase in cooperation among 
terrorist groups and an evolution in their tactics and an 
evolution in their communications. Core al-Qaeda is weaker and 
more decentralized than it was 11 years ago, but it remains 
committed to attacks against the West. Al-Qaeda affiliates and 
surrogates, in particular al-Qaeda in the Arabian Peninsula, 
pose a persistent threat. And in light of recent attacks in 
North Africa, we must focus on emerging extremist groups 
capable of carrying out attacks from that region.
    Next, let me turn for a moment to discuss the cyberthreat, 
which has evolved significantly over the past decade and cuts 
across all FBI programs. Cyber criminals have become 
increasingly adept at exploiting weaknesses in our computer 
networks. Once inside, they can exfiltrate both state secrets 
and trade secrets. And we also face persistent threats from 
hackers for profit, organized criminals, cyber syndicates, and 
hacktivist groups.
    As I have said in the past, I do believe that the cyber 
threat may well eclipse the terrorist threat in years to come. 
And in response, we are strengthening our cyber capabilities in 
the same way we enhanced our intelligence and national security 
capabilities in the wake of the September 11th attacks. Our 
Cyber Division is focused on computer intrusions and network 
attacks. FBI special agents work side by side with Federal, 
State, and local counterparts on cyber task forces and our 56 
field offices. We have increased the size of our National Cyber 
Investigative Joint Task Force, which brings together 19 law 
enforcement, military, and intelligence agencies to stop 
current attacks and prevent future attacks.
    And cyber crime requires a global approach. And through the 
FBI's 64 legal attache offices, we are sharing information and 
coordinating investigations with our international 
counterparts.
    And at the same time, we recognize that the private sector 
is the essential partner to protect our critical infrastructure 
and to share threat information. We have established several 
noteworthy outreach programs, but we must do more. We need to 
shift to a model of true collaboration and build structured 
partnerships within the government, as well as in the private 
sector.
    Turning finally to the FBI's criminal programs, the FBI's 
responsibilities range from complex white-collar fraud to 
transnational criminal enterprises and from violent crime to 
public corruption. Given limited resources, we must focus on 
those areas where we bring something unique to the table. For 
example, violent crime and gang activity continue to exact a 
high toll in our communities, and through Safe Streets and Safe 
Trails Task Forces we identify and target the most dangerous of 
these criminal enterprises.
    At the same time, the FBI does remain vigilant in its 
efforts to find and stop child predators. Our mission is 
threefold. First, to decrease the vulnerability of children to 
exploitation. Second, to provide a rapid, effective response to 
crimes against children. And third, to enhance the capabilities 
of State and local law enforcement through task force 
operations such as the Innocent Images and Innocence Lost 
initiatives.
    Now let me turn and spend a moment discussing the recent 
public disclosure of highly classified national security 
programs. The highest priority of the Intelligence Community is 
to understand and to combat threats to our national security, 
but we do so in full compliance with the law. We recognize that 
the American public expects the FBI and our Intelligence 
Community partners to protect privacy interests, even as we 
must conduct our national security mission. The FISA Court has 
approved both programs, and these programs have been conducted 
consistent with the Constitution and the laws of the United 
States. And the programs have been carried out with extensive 
oversight from courts, independent inspectors general, and 
Congress.
    These programs do remain classified today, so there are 
significant limits on what we can discuss this morning in open 
session. But I do understand that there have been classified 
briefings on these programs for this Committee and for the 
House at large, and I hope that you have been able to attend 
it, and if not, will be able to attend such a briefing from the 
Intelligence Community regarding both the focus, the strictures 
on, and the legality of these programs.
    As to the individual who has admitted making these 
disclosures, he is the subject of an ongoing criminal 
investigation. These disclosures have caused significant harm 
to our Nation and to our safety. We are taking all necessary 
steps to hold the person responsible for these disclosures. As 
this matter is actively under investigation, we cannot comment 
publicly on the details of the investigation.
    Now in closing, I would like to turn to sequestration. The 
impact of sequestration on the FBI's ability to protect the 
Nation from terrorism and crime will be significant. In 2013 
the FBI's budget was cut by more than $550 million due to 
sequestration, and in 2014 proposed cuts will total more than 
$700 million. The ongoing hiring freeze will result in 2,200 
vacancies at the FBI by the end of this fiscal year, with 1,300 
additional vacancies in 2014.
    I have long said that our people is the Bureau's greatest 
asset. Additional operational cuts will impact the FBI's 
ability to prevent crime and terrorism, which will impact the 
safety and security of our Nation. We do understand the need 
for budget reductions, but we would like to work with the 
Committee to mitigate the most significant impacts of those 
cuts.
    Chairman Goodlatte, Ranking Member Conyers, Members of the 
Committee, I want to thank you again for your support of the 
FBI and for its mission. Our transformation over the past 
decade would not have been possible without your cooperation, 
and I look forward to any questions you may have. Thank you.
    Mr. Goodlatte. Thank you, Director Mueller.
    [The testimony of Mr. Mueller follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    


                               __________
    Mr. Goodlatte. Before we begin the questions portion of the 
hearing, I want to remind Members of the Committee that 
although certain classified programs were publicly leaked last 
week, that does not mean that they have been declassified. 
Members who may choose to question the Director about these 
programs should exercise caution in how they phrase their 
questions in due regard for their classification and appreciate 
the Director's very limited ability to speak to the programs in 
an unclassified setting.
    We will now proceed under the 5-minute rule, and I will 
recognize myself for 5 minutes.
    Mr. Director, the recent revelation of the NSA data 
collection programs has led to a great deal of debate both in 
Congress and in the public. I know there is very little you may 
be able to say in a public setting, but to the extent you can, 
please explain to this Committee why you think these programs 
are important and how they protect the American people from 
terrorism. Do you share the concerns of many Members of 
Congress, including myself, and American citizens, that civil 
liberties need to be protected in the operation of these 
programs?
    Mr. Mueller. Well, let me start by saying that the 
challenge in a position such as I have held for the last 11 
years is to balance, on the one hand, the security of the 
Nation, and on the other hand, the civil liberties that we 
enjoy in this country. And there is not a day that goes by that 
we don't look at some issue that raises that balance. One of 
the things we do insist upon and assure, and that is any 
endeavor we undertake addressing national security is legal.
    In this particular case, the programs to which you refer, 
the legality has been assured by the Department of Justice. The 
FISA Court has ruled on these two programs, monitors these two 
programs, and, again, has assured the legality of the efforts 
undertaken in these two programs.
    And lastly, I will say in response to what Ranking Member 
Conyers said in terms of a debate, Congress has been briefed, 
as has been pointed out, has been briefed over the years, was 
briefed prior to the 2009 re-up, was briefed before the 2000 
re-up, in an effort by the Administration to make certain that 
Congress knew and understand the efforts that were being taken 
under Section 215. And if there were a change to be made by 
Congress, if the line is to be drawn differently, so be it. We 
would follow that to the letter of the law. But I repeat that 
in both of these programs passed by Congress they have been 
approved and the legality assured by the Department of Justice, 
by the FISA court, and have been briefed and----
    Mr. Goodlatte. Let me interrupt you because we do need to 
get a couple more questions in.
    Mr. Mueller. Thank you.
    Mr. Goodlatte. I think you've made your point on that. I'm 
sure further discussion about it before the day ensues.
    As you know, the Committee is investigating the use of the 
Privacy Protection Act of 1980 to obtain a search warrant for 
Fox News correspondent James Rosen's emails. In your experience 
as a Federal prosecutor, as assistant to Attorney General 
Thornburgh, as Assistant Attorney General of the Criminal 
Division, and as FBI Director, when you authorize a search 
warrant for a target of a criminal investigation, wasn't 
prosecution of that target the objective?
    Mr. Mueller. I would say no. Quite often in search warrants 
there are--or affidavits in support of search warrants--there 
are occasions where a person will be mentioned as having 
culpability, but there will be no discussion or anticipation of 
prosecution. That could be for a variety of reasons.
    Mr. Goodlatte. Well, to that point, in the case in 
particular we have got Mr. Rosen, and perhaps in other cases, 
where you did not intend to prosecute. Did you characterize the 
individual as a flight risk, as was done in the matter 
involving Mr. Rosen? And did you delay notice of the search 
warrant for 18 months, as was done in the case with regard to 
Mr. Rosen? And it actually turned out to be 3 years because the 
judge neglected to release the information until 18 months 
after his order had required that it be done, but the Justice 
Department requested 18 months in the first place.
    Mr. Mueller. Yeah, I am not----
    Mr. Goodlatte. Why would that be necessary if there were no 
intention to prosecute?
    Mr. Mueller. I am not familiar with the full extent of that 
investigation in particular, all of the facts that were raised 
either in the affidavit or in the discussion as to how one 
would proceed to get the data that persons wanted. I can say 
two things. One, that there was great scrutiny given at the 
local level, I am sure, to what needed to go into the search 
warrant and its affidavit, in particular with reference to the 
judicial requirements for getting those particular records. And 
secondly, that there is a protocol, longstanding protocol in 
the Department of Justice that was adhered to in getting 
approval for that particular action.
    I know and you know that the Department of Justice is now 
looking at this set of circumstances----
    Mr. Goodlatte. Let me interrupt you and get one more 
question in.
    Mr. Mueller. All I want to say is that to the extent that 
there are tweaks that need to be done, we are happy to abide by 
those tweaks.
    Mr. Goodlatte. Following the apprehension of Dzhokhar 
Tsarnaev, some criticized the timing of the criminal complaint 
against him and his initial appearance. We know the timing of 
these acts is set forth by the Constitution and the rules of 
criminal procedure. Do you believe these criminal rules are 
well suited to intelligence gathering from a domestic terrorism 
suspect, and should the Congress consider amending these rules 
when we are faced with a domestic terrorism situation, whereas 
in this case the questioning of this individual by the FBI 
prior to him being given Miranda warnings short circuited your 
opportunity to question him about imminent dangers, like other 
potential sites, other suspected co-conspirators, and other 
bombs that may have been in existence at the time, and 
therefore very important that the defendant--the prospective 
defendant be questioned?
    Mr. Mueller. Any investigator would tell you or 
interrogator would tell you, the longer you have, the more 
information that you get. And particularly in this day and age, 
where if you have access to the information on computers or 
thumb drives or what have you, you will have a much better 
opportunity to get appropriate questioning accomplished. On the 
other hand, you have the dictates of the Constitution and the 
applicable statutes.
    In a very narrow sliver of cases, where it is terrorism, 
where the threat is substantial, I would say that one could 
look at opportunities for giving those questioners additional 
time to extract information that may protect the public.
    Mr. Goodlatte. Thank you.
    My time has expired. The gentleman from Michigan, Mr. 
Conyers, is recognized for 5 minutes.
    Mr. Conyers. Thank you. We appreciate your presence here 
today.
    In the past week, many in the Administration have implied 
that because they have briefed the Congress and this Committee, 
that we are all complicit in the use of these surveillance 
tactics. Can you acknowledge here this morning that your 
briefing me and my staff does not constitute our assent or 
agreement to these programs?
    Mr. Mueller. The briefings that have been, continue to be 
provided to Congress is to inform Congress of how these 
programs are being applied, to what end they're being used, and 
in order to establish a dialogue as to what, if any changes 
need to be done to these programs, but also in furtherance of 
the Congress' role as the oversight body. And consequently, I 
don't think we look at the briefings as a form of agreement in 
any way, shape, or form, but look at the briefings as our 
obligation to inform Congress as to what is happening so if 
Congress wishes to take steps to change the particular statute 
and the applicability of a particular statute, then Congress 
takes the steps to do that.
    Mr. Conyers. The public's understanding of this program is 
that the government collects these records. Let's take the 
Verizon system. And they collect the records of every person in 
the United States and retains them for some period of time, and 
then queries a massive database when it has a specific concern 
about one of us, any one of us. Is that understanding accurate?
    Mr. Mueller. Within broad parameters, yes. But let me make 
two points, if I could. First, that the particular databases of 
metadata has no content whatsoever. We have no authority to get 
content. What the statute, we believe, and the FISA Court has 
allowed is the accumulation of metadata; that is the fact of a 
telephone call, the numbers called, and the time and length of 
those calls, and there are cases that where that has been 
instrumental in identifying individuals who sought to harm our 
country.
    Mr. Conyers. Yes, I know that, that the content isn't kept. 
But to have that information of who called whom, the length of 
time, probably where the parties were, do we need--does that 
serve any real purpose? I mean, is that--this puts everybody in 
the United States of America subject to this kind of content. 
We have a feeling, at least some of us, that it's not 
necessary, nor does it serve a legitimate legal protective 
purpose.
    Mr. Mueller. Would you indulge me, because I want to go 
back to what occurred 9/11, and which has some bearing on this. 
Before 9/11, there was an individual by the name of Khalid al-
Mihdhar, who came to be one of the principal hijackers. He was 
being tracked by the intelligence agencies in the Far East. 
They lost track of him. At the same time, the intelligence 
agencies had identified an al-Qaeda safehouse in Yemen. They 
understood that that al-Qaeda safehouse had a telephone number, 
but they could not know who was calling into that particular 
safehouse.
    We came to find out afterwards that the person who had 
called into that safehouse was al-Mihdhar, who was in the 
United States in San Diego. If we had had this program in place 
at the time, we would have been able to identify that 
particular telephone number in San Diego.
    Mr. Conyers. Yes. I'm almost out of time.
    Mr. Mueller. I understand, but I ask indulgence just to 
finish because it's a critical point as to why we have this 
program and how important it is.
    Mr. Conyers. All right.
    Mr. Mueller. If we had the telephone number from Yemen, we 
would have matched it up to that telephone number in San Diego, 
got further legal process, identified al-Mihdhar.
    One last point. The 9/11 Commission, itself, indicated that 
investigations or interrogations of al-Mihdhar, once he was 
identified, could have yielded evidence of connections to other 
participants in the 9/11 plot. The simple fact of their 
detention could have derailed the plan. In any case, the 
opportunity was not there. If we had had this program that 
opportunity would have been there.
    Mr. Conyers. Mr. Chairman, let me just finish.
    I am not persuaded that that makes it okay to collect every 
call. Look, the Verizon system, how can the government collect 
information on all of the Verizon system if the statute limits 
the government to those records that are relevant? If they are 
relevant, relevant under your interpretation means that 
anything and everything goes, and that's what you did in the 
example that you just gave me.
    Mr. Goodlatte. Let me say, the gentleman's time has 
expired. We are going to try to be very close to the 5-minute 
rule. And it is an excellent question. We will have to wait for 
the answer. We will submit the questions in writing to the 
Director and ask him to respond in writing to those that we 
don't have time to ask today.
    The Chair now recognizes the gentleman from Wisconsin, Mr. 
Sensenbrenner, for 5 minutes.
    Mr. Sensenbrenner. Thank you very much, Mr. Chairman.
    To begin, Director Mueller, let me commend you for your 12 
years of very dedicated service in an agency that obviously had 
to change its targeting and its mission as a result of 9/11. 
And you and I got our jobs as leaders, me as Chairman, about 
the same time. You're about ready to retire. I was retired as 
Chairman in 2007, but I'm not about ready to retire from 
Congress or asking questions. So I'll begin.
    Let me start out with two quotes from then Senator Barack 
Obama. First is, ``President Bush has put forward a false 
choice between the liberties we cherish and the security we 
provide. I will provide our intelligence and the law 
enforcement agencies with the tools they need to track and take 
out the terrorists without undermining our Constitution and our 
freedom.''
    The second quote, which comes from the same speech in 
Washington of August 1st, 2007, ``The Bush administration acts 
like violating civil liberties is the way to enhance our 
security. It is not. There are no shortcuts to protecting 
America.'' Unquote.
    Now, Director Mueller, you have served both under President 
Bush and through the transition to President Obama. What new 
privacy protections did the FBI implement under President 
Obama, and were those in place when the FBI applied for the 
FISA application that was leaked to the Guardian?
    Mr. Mueller. Well, we have internally a privacy officer. 
The Department of Justice has a privacy officer. I do not know 
specifically, but in programs such as this or other areas where 
we initiate collection of information, it goes through our 
privacy shops.
    Mr. Sensenbrenner. That's not my question, with all due 
respect. Were there new privacy protections that were 
implemented by the new President, Barack Obama, after January 
20th, 2009, when he took office?
    Mr. Mueller. Are you asking were there?
    Mr. Sensenbrenner. Yes.
    Mr. Mueller. I'm not certain of the timing of additional, 
whatever additional privacy protections were instituted, if 
there were.
    Mr. Sensenbrenner. Okay. So there might not have been.
    Well, I am very interested in your comment about the al-
Mihdhar case, which was somebody who got on the radar screen 
before 9/11 and before the PATRIOT Act. Section 215 of the 
PATRIOT Act, which I had a hand in drafting, requires that the 
business records FISA warrants, or orders, be directed solely 
at foreigners who are the targets of an authorized terrorism 
investigation and not on United States citizens unless they are 
contacted or involved with foreigners.
    Now, I don't think that Section 215 would have put a crimp 
on identifying al-Mihdhar if that was in place before September 
11th. But my question is, with respect to the FISA order that 
was leaked to the Guardian, is with the narrowness that Section 
215 is, and as I have described it. How can Section 215 be 
utilized to scoop up the phone records of American citizens who 
are not in communication with a foreigner who is an object of 
an authorized terrorism investigation?
    Mr. Mueller. To a certain extent I have to defer to the 
Justice Department on the legal theory and the FISA Court. I 
can tell you generally that there is the belief that the body 
of telephone toll data has in that information that is 
relevant, may be relevant in the future, has been relevant in 
the past, and that its collection in this matter thereby 
satisfies the requirement for relevance according to the court.
    Mr. Sensenbrenner. Well, you know, the question of 
relevance is the same type of question that could be issued 
either with a grand jury subpoena or with a national security 
letter without involving the PATRIOT Act. I hear you involved 
the PATRIOT Act in something that is done in secret, and there 
are no due process protections in place because the recipient 
of the FISA warrant can't tell what records he's turned over. 
And that's not the case with either national security letters 
or grand jury subpoenas.
    Now, I guess what my concern is, is that there really isn't 
any way for anybody whose records are turned over to approach 
the FISA Court or any other court, because they don't know 
about it, to try to get the order quashed. And an FBI agent was 
the one that signed the affidavit to get that order.
    And my time is up.
    Mr. Mueller. Well, let me, if I may just follow up with one 
observation. And that is, as we all know, these particular 
records are not covered by the Fourth Amendment. The Supreme 
Court has held that to be the case. And secondly, the 
determination as to the legality and that standard has been 
addressed by the FISA Court in the affirmative to support this 
particular program.
    Mr. Goodlatte. The Chair recognizes the gentleman from New 
York, Mr. Nadler, for 5 minutes.
    Mr. Nadler. Thank you.
    Let me just suggest, by the way, that that 1979 decision of 
the Supreme Court that a phone bill is not protected by the 
Fourth Amendment might not apply to a lot of the stuff today 
given how pervasive and privacy invading this metadata has 
become, compared to what could be done in 1979. So I wouldn't--
I don't know that I would totally rely on that precedent to do 
everything that is being done.
    But let me ask you the following. Under Section 215--and I 
also would like to associate myself with the remarks that a 
dragnet subpoena for every telephone--every telephone record, 
et cetera, every email record--although I know they don't do 
that anymore, but they could again tomorrow, and they did do 
it--certainly makes a mockery of the relevance standard in 
Section 215.
    If everything in the world is relevant, then there is no 
meaning to that word. Now, some of us offered amendments to 
narrow that several years ago, and in retrospect maybe we 
should have adopted those amendments. But that's no excuse for 
a misinterpretation of relevance to the point that there is no 
such meaning to the word.
    Now, secondly, under Section 215, if you've gotten 
information from metadata and you as a result of that think 
that, gee, this phone number, 873, whatever, looks suspicious 
and we ought to actually get the contents of that phone do you 
need a new specific warrant?
    Mr. Mueller. You need at least a national security letter. 
All you have is a telephone number. You do not have subscriber 
information, so you need the subscriber information. You would 
have to get probably a national security letter to get that 
subscriber information. And then if you wanted to do more----
    Mr. Nadler. If you wanted to listen to the phone?
    Mr. Mueller. Then you have to get a particularized order 
from the FISA Court directed at that particular phone and that 
particular individual.
    Mr. Nadler. Now, is the answer you just gave me classified?
    Mr. Mueller. Is what?
    Mr. Nadler. The answer you just gave me classified in any 
way?
    Mr. Mueller. I don't think so.
    Mr. Nadler. Okay. Then I can say the following. We heard 
precisely the opposite at the briefing the other day. We heard 
precisely that you could get the specific information from that 
telephone simply based on an analyst deciding that and you 
didn't need a new warrant. In other words, that what you just 
said is incorrect. So there's a conflict----
    Mr. Mueller. I'm not certain it's the same--answer to the 
same question. I'm sorry, I didn't mean to----
    Mr. Nadler. Well, I asked the question both times and I 
think it's at same question. So maybe you'd better go back and 
check because someone was incorrect.
    Mr. Mueller. I will do that. That is my understanding of 
the process.
    Mr. Nadler. Okay. I don't question it's your understanding. 
It was always my understanding. And I was rather startled the 
other day. And I wanted to take this opportunity to----
    Mr. Mueller. I would be happy to clarify it.
    Mr. Nadler. Thank you.
    Second, we have heard from Director--DNI Clapper of the 
terrible, horrible damage to national security done by, what's 
his name, Snowden, by releasing this information. I'd like to 
you comment on that. I don't understand how national security 
was breached.
    We knew publicly, from 2006 at least, from the reporting in 
the USA Today on May 11th, 2006, about the--basically the 
existence of a massive NSA database of metadata from domestic 
phone calls. That was reported back then. We debated it in this 
Committee and on the floor of the House in connection with the 
reauthorization, I believe in 2012 and in 2008. At least 
several times. So that was known publicly.
    The only thing that was not known as far as I can tell that 
was revealed was the specifics of that court order, which tell 
us nothing other than what was already public. Plus you could 
have it for whatever length of time it was. And even the stuff 
about Section 702, we debated that at length in the FISA 
Amendments Act debate a couple years ago, so that was pretty 
known. The only thing that may not have been known is the exact 
technical capabilities.
    But my assumption--and tell me why you think this is not 
correct--is that any terrorist or would-be terrorist with half 
a brain in his head would assume that all electronic 
communications are vulnerable and may be subject to 
interception. And how does what what's his name just released 
add to that assumption or change that assumption?
    Mr. Mueller. And let me address the last point, because I 
often hear that any terrorist who has a brain would figure it 
out. The fact of the matter is there are terrorists and there 
are terrorists. And I can speak generally, but I cannot going 
into some of the more details as to specific harm to national 
security. But I can tell you every time that we have a leak 
like this, if you follow it up and you look at the intelligence 
afterwards, there are persons who are out there who follow this 
very, very, very, very closely and they are looking for ways 
around it.
    One of the great vulnerabilities that terrorists understand 
is their communications, and they are consistently looking for 
ways to have secure communications. Any tidbit of information 
that comes out in terms of our capabilities and our programs 
and the like they are immediately finding ways around it.
    And if we lose, as we--one of my problems is that we are 
going to lose because we've got chat, VoIP, a number of other 
things, lose our ability to get their communications, we are 
going to be exceptionally vulnerable. I ask you to get the 
more--the classified briefing as to more specifics. But nobody 
be misled in this: This hurts national security.
    Now, the issue is, how do you balance that against privacy? 
I understand that. And you may come down differently than 
others, than the FISA Court, than me, perhaps. But all I can 
say is that there is a cost to be paid.
    Mr. Goodlatte. The time of the gentleman has expired.
    The Chair recognizes the gentleman from North Carolina, Mr. 
Coble, for 5 minutes.
    Mr. Coble. I thank the Chairman.
    Mr. Director, again, thank you for your years of service.
    I want to revisit Benghazi, Mr. Director. Some recent weeks 
ago the former Secretary of State, Hillary Clinton, appeared 
before a Senate hearing and she was asked about certain facts 
that surrounded the Libyan tragedy, and she responded, what 
difference does it make? Well, I'll take umbrage with that 
response. Which I felt was insensitive and condescending. It 
may make a great deal of difference.
    Having said that, we have all seen, are familiar with 
reports that the FBI's Evidence Response Team, the ERT, waited 
in Tripoli for more than 2 weeks for access to Benghazi. Some 
have said that this was due to bureaucratic entanglements. Do 
you agree with that?
    Mr. Mueller. I do not. We monitored the situation very 
closely after that occurrence. We had persons ready to go. 
Quite obviously we were in touch immediately with the State 
Department requesting the opportunity to go. There were a 
number of factors that made this as unique a situation overseas 
as we have seen. This isn't the first bombing that we've had of 
our embassies. East Africa, we had a number of years ago. But 
we got our people in. In this case there were a combination of 
factors that were the delay.
    In Benghazi there is no law enforcement. Was not then. Is 
not now. There is nobody that you can deal with in terms of 
assuring your security.
    Mr. Coble. Let me ask one more question.
    Mr. Mueller. Secondly--pardon?
    Mr. Coble. Go ahead.
    Mr. Mueller. Secondly, the Libyan government. It is 
dependent upon getting visas from the Libyan government and the 
Libyan government then and today is still unstable and it's 
very difficult to get any decisions made from a person who is a 
decision maker in that arena. But I would say the bottom line 
is to assure the security of our people when we went in. When 
we could assure the security of our persons, we did go in and 
do our onsite review.
    Mr. Coble. Did you speak to anyone in the Libyan government 
about the delay?
    Mr. Mueller. We were talking through our Ambassador. I 
think it was the Ambassador there at the time pushing hard. I 
know the State Department was pushing hard. We were pushing 
hard. But the two concerns, the safety and the reluctance of 
the government to move quickly on this, inhibited our ability 
to do what we wanted to do.
    Mr. Coble. Mr. Mueller, as a former prosecutor I know you 
are familiar with the importance of preserving a crime scene in 
order to assure that you can collect the maximum amount of 
evidence. Having said that, once the ERT arrived in Benghazi, 
how quickly were they able to secure that scene and begin 
collecting evidence?
    Mr. Mueller. Well, the ERT team went in with a military 
component with support from air assets and others. And I think 
we did it within a 24-hour period.
    Mr. Coble. Would it be fair to say that the 2-week delay in 
the FBI's ability to secure the scene of the attacks led to the 
corruption of the scene?
    Mr. Mueller. I would say that--I'm not certain I would say 
corruption of the scene. I would say that you always want to 
get to the scene as soon after the occurrence. Certainly, the 
scene had been entered by any number of people and it was not 
as pristine as we would like. Absolutely.
    Mr. Coble. Mr. Mueller, would it also be fair to say that 
the corrupted scene led to less evidence collection since we 
cannot establish the chain of custody? That is to say that the 
same evidence at the scene was the same when you all began as 
was 2 weeks prior?
    Mr. Mueller. Oh, I think yes, I would say yes. The delay 
adversely impacted the ability to gather evidence in a variety 
of ways and adversely impacted the investigation.
    Mr. Coble. Has this put a damper on our ability to pursue 
leads?
    Mr. Mueller. I'm sorry?
    Mr. Coble. Has this put a damper on our ability to pursue 
leads and/or suspects?
    Mr. Mueller. Well, you don't know what you don't know, what 
you may have missed. I can tell you that the investigation is 
ongoing. We've had some success that I can't get into today. 
But it is a very difficult operating environment, not just at 
the scene itself, but obtaining the cooperation of witnesses 
and others who may have information relating to the----
    Mr. Coble. My time is about up. Mr. Mueller, this Benghazi 
tragedy still hangs in my craw. I'm not directing this at you, 
but I'm directing it at somebody. We still don't know all the 
facts. I don't suggest there is a cover-up but it has the 
trappings of a cover-up. And I repeat it hangs in the craw. As 
my late granddaddy used to say: It makes my coffee taste bad in 
the morning. But we will see what happens. Thank you for being 
with us.
    Mr. Goodlatte. The Chair thanks the gentleman and 
recognizes the gentleman from Virginia, Mr. Scott, for 5 
minutes.
    Mr. Scott. Thank you, Mr. Chairman.
    Director Mueller, thank you for your very distinguished 
service.
    As you know, people acquiring firearms can, with the gun 
show loophole and a lot of other exceptions, easily obtain a 
firearm without a criminal background check. What difference 
would a universal or virtually universal background check make?
    Mr. Mueller. Well, at the outset it would mean fewer 
persons who have the characteristics, ability and 
characteristics, would be in possession of guns.
    Mr. Scott. On the issue of these telephone records, you've 
indicated how the acquisition of all telephone records helps to 
protect us from terrorism. Is it true that this data can be 
used for things other than terrorism?
    Mr. Mueller. No.
    Mr. Scott. You can't use it for a criminal investigation?
    Mr. Mueller. No.
    Mr. Scott. You can't use it if the purpose of the Section 
104 wiretap is a significant purpose, that terrorism is a 
significant purpose, there may be some other purpose?
    Mr. Mueller. I'm sorry, I missed the question, sir.
    Mr. Scott. Under Section 104 you can get the warrant, you 
have to show that a significant purpose of the surveillance is 
to obtain foreign intelligence information. ``Significant 
purpose'' was the change in the law from ``the purpose,'' which 
suggests that it's the primary purpose. If it's just a 
significant purpose, that would leave open the idea that there 
is another purpose for getting the information. When I asked 
Attorney General Gonzales that question, what other purpose you 
could be using these warrants for, he blurted out criminal 
investigations, of course without the normal probable cause and 
everything else.
    Is the acquisition of this information, this metadata, 
solely for protection against terrorism or can it be used for 
something else?
    Mr. Mueller. Terrorism.
    Mr. Scott. Now, if you tripped over some other things, like 
you noticed a crime, could you use it in a criminal 
prosecution?
    Mr. Mueller. No. Not that I'm aware of. The strictures are 
that you cannot. Now, there may be a way to go to the court if 
there was an egregious crime that you get some permission of 
the court, but the court would have to authorize it.
    Mr. Scott. Well, the exclusionary rule works because you 
don't illegally obtain evidence because if you got it you can't 
use it. There is a suspicion that some of us have that you're 
getting this information and you can use it, if you've got one 
of these task forces and one of the guys can get a FISA 
warrant, other guy can't, will you go get the FISA warrant, 
we'll track down, because you've got one of the guys in the 
place is an agent of a foreign government, so we can go listen 
in and see if we can't trip over a crime, then use the 
evidence. You're saying you can't use it for anything other 
than terrorism?
    Mr. Mueller. You cannot under the statute. If you are 
talking about 215, it says reasonable, articulable suspicion 
that a particular telephone number was associated with al-Qaeda 
or a foreign power. It's very simple.
    Mr. Scott. Yeah, significant purpose. Not primary purpose.
    Mr. Mueller. I'm uncertain on--I'd have to go back----
    Mr. Scott. We changed it from primary purpose to 
significant purpose which just opened up the idea that you 
could have some ulterior motive.
    Mr. Mueller. Well, on that particular language and language 
change, if you allow me to get back to you, I'd like to give 
some thought to that.
    Mr. Scott. And so that this information that we're getting 
can only be used for terrorism? That's what we're hearing----
    Mr. Mueller. Yes, under 215, yes.
    Mr. Scott. In the IRS situation there is some question as 
to whether some progressive groups were also targeted for 
scrutiny under Section 501(c)(4) abuse. But if it can be shown 
that only groups targeted were targeted because of political 
views, would that violate criminal law?
    Mr. Mueller. I'd have to--that's speculative. Excuse me 
just 1 second if I could.
    I just wanted to check whether I was right on--I wanted to 
check my answers on my previous--on your previous questions. 
Thank you.
    Mr. Scott. Okay. On the Boston bombing, obviously there was 
information out there that you could have used. Do your limited 
resources limit your ability to track down each and every lead 
that you're given and compromise your ability to protect us 
against terrorism?
    Mr. Mueller. We get thousands upon thousands of terrorism 
leads each year. The Boston office is up in that range of those 
number, a thousand a year. In this particular case, though, I 
do believe that when we got the lead on Tamerlan from the 
Russians, that the agent did an excellent job in investigating, 
utilizing the tools that are available to him in that kind of 
investigation. As I think you're aware, he did all the records 
checks. He went out to the--interviewed persons at the college 
where Tamerlan was there for a period of time. Ultimately, 
interviewed the parents. Interviewed Tamerlan himself. Sent the 
information back to Russia. And on three separate occasions we 
asked the Russians for additional information that might give 
us indications or evidence that he was a terrorist.
    So I think we did a thorough job in following that lead. 
And at that point in time, I do not know that there was much 
else that could be done within the statutes, within the 
Constitution to further investigate him.
    Mr. Scott. Thank you, Mr. Chairman.
    Mr. Goodlatte. The Chair recognizes the gentleman from 
Ohio, Mr. Chabot, for 5 minutes.
    Mr. Chabot. Thank you, Mr. Chairman.
    Mr. Director, as Mr. Sensenbrenner did, I want to thank you 
for your service over the years to our country. I also want to 
disclose that I happen to represent Cincinnati, Ohio, where 
some of the allegations of apparently rogue employees who were 
allegedly acting on their own have--were originated.
    But my questions, let me begin with this. The IRS, of 
course, is privy to some of our citizens' most sensitive 
information and it's tasked with applying the law in a fair and 
impartial way. You would agree with that?
    Mr. Mueller. Yes.
    Mr. Chabot. Okay. However, the members of a tea party group 
in my district received a letter asking some pretty invasive 
questions, I believe. Providing all their Facebook and Twitter 
information, for example. Any of their advertising. They 
specifically mentioned a gentleman by the name of Justin Binik-
Thomas--although it says Bink, B-I-N-K, it's actually B-I-N-I-
K, I believe--who's just an ordinary citizen who didn't have 
any connection with that particular organization that received 
this inquiry from the IRS. And he also got no notification in 
that matter at all.
    They also got questions about providing a list of all the 
issues that were important to that organization. And they 
wanted to know what their position was regarding each issue. 
And I am very concerned about the IRS' admitting to targeting 
conservative groups and this overly invasive line of 
questioning and request for information. It's really, I 
believe, more like harassment rather than an appropriate 
inquiry under 501(c)(4) status inquiries.
    Now, the Attorney General announced back on May 14th that 
he had ordered an investigation by the FBI. Has the FBI begun 
that investigation now?
    Mr. Mueller. Yes.
    Mr. Chabot. Okay. And I assume that you can't go into the 
details of that because it's an ongoing investigation. Am I 
correct on that?
    Mr. Mueller. Correct.
    Mr. Chabot. Okay. Now, the IRS Commissioner, Steven Miller, 
initially blamed these actions, as I said, on two rogue 
employees way out there in the Cincinnati office, so how could 
we possibly know anything about that here in Washington, 
basically. And he acted like nobody here in this city knew 
anything it or was connected in any way with it.
    That's become pretty clear at that point that the IRS in 
Washington was involved in this. And I'd like to read a couple 
of things here relative to Elizabeth Hofacre, who was one of 
the Cincinnati employees, and some of the things that she has 
indicated on the record. She said that the tea party cases, the 
patriot cases, those types of organizations that were 
questioned by the IRS, that they were basically in a holding 
pattern, their applications. She indicated that they were 
basically in a black hole. She had been working for 11 years at 
the IRS and she said the way the IRS handled the tea party 
cases was unprecedented.
    So unprecedented, which I think is pretty significant. She 
said it was micromanaged to death by an IRS lawyer who worked 
in Washington. Again, no Washington connection, of course, but 
that's where this IRS lawyer was, here in Washington, D.C. And 
back in July 2010 the IRS developed what was called a BOLO 
list. Do you know what a BOLO list is?
    Mr. Mueller. No, sir.
    Mr. Chabot. Okay. Well, it stands for Be on the Look Out. 
BOLO, Be on the Look Out. And it instructed----
    Mr. Mueller. Well, I knew BOLO in the law enforcement 
context. I didn't know whether you were using it in that 
context.
    Mr. Chabot. Yeah, it was used in that context to send 
Hofacre applications from organizations involved with the tea 
party movement. And she told congressional investigators that 
she understood the purpose of the list was to target 
conservative and Republican groups. Other political groups did 
not get handled the same way, according to her. A USA Today 
review of tax exemptions granted at the time showed dozens of 
liberal groups got exemptions while tea party groups were on 
hold.
    And subsequently there was another BOLO criteria that came 
down from D.C. talking about including groups whose issues 
include government spending, government debt and taxes, and if 
you're critical of the country or the direction that it's going 
or the way it's being run. And, again, a lot of these things 
sat in limbo for 27 months.
    Will all these matters be investigated by the FBI no matter 
how high up they go?
    Mr. Mueller. I can specifically assert that all will. To 
the extent that there is any indication of criminal misconduct, 
we will follow the leads and the evidence wherever it takes us.
    Mr. Chabot. Thank you.
    Mr. Goodlatte. The Chair recognizes the gentleman from 
North Carolina, Mr. Watt, for 5 minutes.
    Mr. Watt. Thank you, Mr. Chairman.
    And thank you, Director Mueller, for your service over the 
years. I think you have raised the standard very high and I 
appreciate that.
    I want to follow up on--in a response that you made to a 
question Mr. Conyers gave you used the phrase that you thought 
the American people were concerned about to what end they, the 
programs, these two programs, are being used.
    And I think that is absolutely the case. I think that was 
the case when we were debating the PATRIOT Act and the 
reauthorization of it. And the concerns that a number of us 
were raising at that time was to what end would these programs 
be used.
    Congressman Scott has questioned you about some of those 
ends. And what I want to do is frame this based on the four 
things that you mentioned in your opening statement. You talked 
about terrorism. You talked about national security. You talked 
about cybersecurity. And you talked about criminal activity in 
your description of cybersecurity, and you said that that 
required public-private interaction. And all of these things 
have become more global, I take it, all four of those 
categories have become more global.
    So the question I'm raising is, is there a distinction 
between terrorism, the purposes for which information can be 
used in these programs for terrorism purposes--that's why the 
statutes were put in place--is there a distinction between 
terrorism and national security?
    Mr. Mueller. I think terrorism as defined is a threat to 
national security, in and of itself.
    Mr. Watt. Okay, but does national security include some 
things outside terrorism?
    Mr. Mueller. Include the what?
    Mr. Watt. Some things that are outside the category of 
terrorism?
    Mr. Mueller. Terrorism is a separate category, but you have 
cyber terrorists, you have individuals, and one of the concerns 
we have, quite obviously in the future----
    Mr. Watt. What about trade, trade as a matter of----
    Mr. Mueller. Trade----
    Mr. Watt [continuing]. National security, I take it----
    Mr. Mueller. I can tell you if--I mean, one of the 
hypotheticals is a terrorist attack, cyber terrorist attack on 
Wall Street. That is trade. To the extent that you would 
disrupt that, then absolutely, that is a matter of national 
security.
    Mr. Watt. So I think what--you were right that the public's 
concern here is what is the overlap between these four 
categories and to what extent can this information that is 
being gathered be used for things that--in the gray areas here.
    I was uncomfortable that we got so preoccupied with 
terrorism that we compromised, I thought, personal liberties, 
but assume that we got comfortable with that after 9/11. What 
if you found something in this information that's gathered 
under these two programs that related more to criminal 
activity, serious criminal activity, the question is can that 
be used, anything you find in these phone dragnets, can it be 
used in a criminal investigation if you decide that it's not 
terrorist related necessarily, but could be national security 
related or cybersecurity related? What is the dividing line 
between the use of these things other than an individual 
agent's discretion or whatever an individual agent represents 
in an affidavit to the court?
    Mr. Mueller. Let me start by the use of the word dragnet. I 
do not believe----
    Mr. Watt. I'm sorry. And I didn't intend to use it either. 
I really apologize. It's data gathering.
    Mr. Mueller. It's data gathering; it is not content. The 
statute is fairly specific that it's attributable to terrorism, 
and the traditional what one would understand to be terrorism, 
al-Qaeda and its like, and other terrorist groups that are 
specifically mentioned.
    As I tried to point out before, the program is set up for a 
very limited purpose, in a limited objective, and that is to 
identify individuals in the United States who are using a 
telephone for terrorist activities and to draw that network.
    Mr. Watt. Is cyber terrorism?
    Mr. Mueller. If there was----
    Mr. Watt. Is cyber terrorism?
    Mr. Mueller. Sniper?
    Mr. Watt. Cyber?
    Mr. Mueller. Cyber? It can be, it can be. But not as 
distinguished--I'd have to look at that, but I don't believe it 
would be covered in this particular statute. I tried to leave 
out the possibility that if there were a piece of evidence that 
was applicable to a homicide or substantial, the only way for 
that piece to be utilized was go back to the court and get the 
approval of the court to utilize this information in a way that 
was not covered in the original order.
    Mr. Goodlatte. The time of the gentleman has expired.
    The Chair recognizes the gentleman from Alabama, Mr. 
Bachus, for 5 minutes.
    Mr. Bachus. Director Mueller, I also want to commend you on 
your service to our country.
    Mr. Mueller. Thank you.
    Mr. Bachus. And let me ask you, I have been reading about 
James Rosen case, the reports on it, and I find a great deal of 
confusion over what the Justice Department and the FBI have 
done and what they haven't done. You're familiar with the 
search warrant and the affidavit?
    Mr. Mueller. In that particular case?
    Mr. Bachus. Yes.
    Mr. Mueller. No, I'm not that familiar with it.
    Mr. Bachus. All right. Are you familiar--I mean, at the 
time the search warrant was issued, Stephen Kim had already 
been identified as the leaker of the information. Are you aware 
of that?
    Mr. Mueller. I am not aware of the timing, I know this was 
3 years ago.
    Mr. Bachus. Yeah. No, actually in 2010, yeah, yeah, that's 
right, he had already been identified, I'll just tell you, if 
you read the affidavit, clearly he had been identified as the 
leaker. And I know that Attorney General Holder said he didn't 
know of a prosecution, you know, or wasn't a party to a 
prosecution of the press. But if you read the search warrant, I 
know that it talks about Mr. Rosen as being perhaps an aider or 
abetter or co-conspirator. But if you read the affidavit, he 
clearly was encouraging Stephen Kim to leak classified 
information. I mean, there is quite a bit of that. In fact he 
was concealing his identity and telling Kim to conceal his 
identity.
    Now, also according to this affidavit--and I take this as 
being true, I know of nothing in this affidavit that has been 
disproved--this disclosure threatened our national security, 
clearly, and it probably or could have cost the life of our 
intelligence source in North Korea, because I'm not even sure 
if the person is still alive.
    Now, just assuming that what I say--that assuming the 
affidavit is correct and that James Rosen was doing all of this 
information, daily contact with Kim, I know that there has been 
accusations that the Privacy Protection Act was violated. But, 
you know, it says that protects journalists from being 
compelled to turn over to law enforcement any work product or 
documentary materials, including sources, before the 
information contained in these materials is disseminated.
    Now, it was disseminated a year before. So that I don't 
think is valid. It also prevents investigators from searching 
newsrooms to uncover information or sources that a news 
organization has assembled. I don't think that applies in this 
case. I know of no search of any newsroom or any work product.
    But it says there is no protection if there is probable 
cause to believe the person possessing the materials has 
committed or is committing a crime to which the materials 
relate to, including receipt, possession, or communication of 
classified material.
    Now, this affidavit contains 35 pages of very active 
recruiting of the State Department employee, advising him, the 
reporter, to use a fake email. And the search warrant was to 
Google. So, you know, it's has been said that they should 
take--the government should take reasonable steps to obtain the 
information through alternative sources or means than the 
reporter. Well, I would think Google would be an alternative 
source.
    And there is a clear presumption--well, there isn't now, 
but there is a presumption I think again seizing a reporter's 
work product. But I would ask you to read that affidavit. And 
my point is simply, from reading the affidavit, I would think 
it's clearly within the right of the government to prosecute 
this reporter.
    Mr. Mueller. I can tell you two things. One, I did briefly 
review the affidavit when it--when the issue arose, so I am 
somewhat familiar with it. I can tell you that the focus of our 
investigations are on the person within the government has 
leaked the information.
    Mr. Bachus. Sure.
    Mr. Mueller. That is the focus of our investigations. And 
thirdly, I would say that given the issues that have been 
raised, that it is appropriate to go back and look at the 
statute that was applied to that search warrant and to the 
protocols that have been established in our exercise of our 
investigative ability when it comes to this tension between the 
First Amendment, on the one hand, and stopping leaks on the 
other hand.
    Mr. Goodlatte. The time of the gentleman has expired.
    Mr. Bachus. Let me just--Mr. Chairman--there was no 
prosecution----
    Mr. Goodlatte. The time of the gentleman has expired. The 
Chair recognizes the gentlewoman from California, Ms. Lofgren, 
for 5 minutes.
    Ms. Lofgren. Thank you, Mr. Chairman.
    And thanks to you, Mr. Director, for your years of service 
to our country. I remember so well seeing you right after 9/11. 
You had been on the job just a handful of days. And you have 
certainly served our country well and honorably, and I thank 
you for that.
    I do have, following up Congressman Bachus' questions, I do 
have concerns about our posture relative to the press. And I 
wanted to talk about the issue of the phone numbers for the 
Associated Press or Associated Press reporters.
    The Department of Justice recently let AP know that it had 
subpoenaed the records for 20 phone numbers as part of a leak 
investigation. And the AP has said that approximately 100 of 
its reporters use these phones on a regular basis.
    Now, one of the phones was the AP's primary number in the 
House of Representatives press gallery and used by many 
reporters, not just the AP. And this raises concerns not only 
about the First Amendment, but also about separation of powers. 
Certainly it is likely that many of the calls made by these 
phones were with congressional staff or Members of Congress and 
likely irrelevant to the leak case, but certainly do raise 
issues of speech and debate.
    I am wondering, in the Department of Justice, the Attorney 
General has to personally sign off on subpoenas for reporters. 
In this case, since the Attorney General recused himself, the 
Deputy Attorney General apparently signed off. Who at the FBI 
needs to sign off on a subpoena request like this before it 
goes over to the Justice Department? Is that you?
    Mr. Mueller. No. It is at the Assistant Director level, if 
I'm not mistaken. I'd have to get back do you specifically.
    But I believe, depending on the context and what is 
ordered, it would be the Assistant Director in charge of the 
particular division that is doing that. Generally it is the 
Assistant Director that handles the leak investigations.
    Ms. Lofgren. In a case like this would there be at that 
level consideration of the implications for chilling First 
Amendment rights, and would there also be an analysis of the 
speech and debate implications and the separation of power 
implications?
    Mr. Mueller. I think the flag would be raised on both of--
certainly it's a leak investigation. Any leak investigation you 
know that you're in an environment where there are competing 
tensions. Any time you come across anything that implicates the 
legislature and Congress in some way, then that sends up a red 
flag and requires additional scrutiny and decision as to who 
to--or how the investigation goes. And then you absolutely want 
to be with Assistant United States Attorney handling the case 
and deciding what steps to be taken.
    Ms. Lofgren. We would assume then in this case that the 
Department of Justice and the FBI decided it was okay if 
Members of Congress in the legislative branch were the subject 
of your inquiry because of the location of this phone call in 
the House gallery?
    Mr. Mueller. I'm not certain that that in and of itself, 
the fact that there is this one telephone number that is a main 
number would be sufficient to raise a flag of, okay, we're 
going to get congressional conversations across this line. And 
it's not across this line. It's not that at all. Because 
remember it's the toll records, it's a request for toll 
records, not conversations themselves.
    Ms. Lofgren. In terms of investigating leaks of classified 
information, certainly that's a worrisome issue. But why did 
you think it was necessary to seek records for so many 
telephones used by so many reporters in the AP case? Obviously 
many of the records under this subpoena wouldn't have relevance 
to the leak investigation. Did the FBI have a process for 
minimizing the collection of irrelevant records from the 
subpoena or did all the data get uploaded into FBI databases 
regardless of relevance?
    Mr. Mueller. Well, we are adapting, let me just say 
adapting special procedures to assure that the records are 
protected. In terms of the numbers, I'd have to leave that to 
the Department of Justice and it's an investigative--it's in 
the midst of investigation still. I will tell you that I do 
believe that there was a substantial effort made to minimize 
the request.
    Ms. Lofgren. Let me just close with this. In order to get a 
subpoena for the records of the reporters, they would have to 
be implicated in this leak investigation. Is it the FBI----
    Mr. Mueller. Did you say they would have to be implicated?
    Ms. Lofgren. The reporters. Is it the FBI practice to 
consider reporters, editors, and publishers who print stories 
about classified government matters as criminals? And how many 
times since you've been the FBI Director has the FBI sought 
reporters' work materials or communications with search 
warrants alleging that they are criminals?
    Mr. Goodlatte. The time of the gentlewoman has expired, but 
the Director may answer the questions.
    Mr. Mueller. Well, we quite obviously don't consider that 
category that you listed criminals in any way, shape, or form. 
Our focus is on identifying that individual who has those 
secrets and to whom that person has given the secrets. Part of 
that investigation goes to show the contacts between the person 
who is leaking the materials and the person publishing the 
materials. If you go to court on this you have to show that 
this particular set of materials that were leaked went to a 
particular person for publication. But the focus is on the 
person who is doing the leaking.
    And the last part, I can't recall.
    Ms. Lofgren. Could you get back to us on that?
    Mr. Mueller. Yes, ma'am.
    Ms. Lofgren. Thank you.
    Mr. Goodlatte. The gentleman from California, Mr. Issa, is 
recognized for 5 minutes.
    Mr. Issa. Thank you. And I would yield 10 seconds to the 
gentleman from Alabama.
    Mr. Bachus. Let me say I think the AP--what happened with 
the AP is outrageous. What I was simply saying is there is a 
totally different dynamic with Rosen.
    Mr. Issa. Director, you used a term just now for the 
gentlelady from California, you said we are in the process of. 
Actually, no, you said we are, and you said it in the present 
tense. It's fair to characterize that what you are really 
saying is we are now in the process of protecting that which 
has not been previously protected. In other words, since you 
used the present tense, I'm assuming that before this became 
very public, protections that will be in effect in the future 
were not in effect?
    Mr. Mueller. Well, we have protection of all of our 
investigations. Some investigations are protected more than 
others.
    Mr. Issa. But, Director, I just want to hold you to the 
explicitness of your word, if I may. You said it in the present 
tense. So is it fair--yes or no--is it fair for me to assume 
that there are additional efforts now underway that will be 
implemented?
    Mr. Mueller. Yes, yes.
    Mr. Issa. Thank you. At some time in the past was James 
Rosen a subject of an investigation as to criminal activity?
    Mr. Mueller. Not to my knowledge.
    Mr. Issa. Is he now a suspect in a criminal investigation?
    Mr. Mueller. Not to my knowledge.
    Mr. Issa. Thank you. So a warrant or any other document 
naming him as a suspect of a criminal investigation would be 
false?
    Mr. Mueller. Well, I don't think there is such a warrant 
out there.
    Mr. Issa. Okay. So any kind of documentation that alleged 
that he was involved in that would be a false statement? I just 
want to follow up on what Mr. Bachus said that, you know----
    Mr. Mueller. I know--I think I know where you're going.
    Mr. Issa. Will you get me there?
    Mr. Mueller. We're not all the way there. The colloquy and 
questions that you ask I am comfortable with. When you go and 
say conduct described in a particular entity which could or 
could not be subject to ultimately a prosecution.
    Mr. Issa. Okay. But it's fair to say he wasn't a suspect.
    Mr. Mueller. No.
    Mr. Issa. And we'll let the words of some documents speak 
for itself.
    Today are you using all necessary and available resources 
to apprehend those people responsible for the murders in 
Benghazi.
    Mr. Mueller. Yes.
    Mr. Issa. To your knowledge, are the CIA, NSA, and other 
appropriate overseas assets being used to try to find those 
responsible and bring them to justice?
    Mr. Mueller. Yes.
    Mr. Issa. Is there a reason, can you explain to us--this is 
a little longer than the usual answer I'm sure--how it could be 
that we've got videos of them, we've got knowledge of who many 
of these people are, in some cases by name, and yet we haven't 
found one of them in Libya or some other country? Isn't that 
unusual, to have such a cold record as far as we know today?
    Mr. Mueller. Let me explain in a couple of ways. Yes, it is 
unusual to have such a cold record. As I articulated before, 
this is a unique situation. We have had embassy attacks before. 
We have had our colleagues in law enforcement and the 
government helping us. There is no government to help us in 
Libya. We don't have colleagues we can go to. And so it is 
unique. But----
    Mr. Issa. But you have had access to the site and to people 
there and you do have the ability to get into Benghazi, if 
absolutely necessary, either you or agents on our behalf.
    Mr. Mueller. If absolutely necessary. But it is a very 
hostile territory, as you can understand. Nonetheless, we have 
video. We something there to work with, and I can tell you that 
we have been working with it. And that quite obviously 
individuals who may have participated against whom we may have 
evidence, whether it be video or otherwise, we are pursuing.
    Mr. Issa. Okay. Just two more quick questions. In your 
lifetime of law enforcement, is it a practice that you believe 
is appropriate to, when you have information and transcripts 
and other collected data, to selectively make some of it 
available in order to facilitate both public and witness 
cooperation? In other words, do you put out certain 
information, and, conversely, do you retain certain 
information? In other words, you don't put out an entire 
transcript or deposition, you don't put out all the evidence 
you have, but you do put some of it out as a matter of course 
in investigations in order to get people pointed. For example, 
you put out a picture of somebody in the case of Benghazi and 
yet you're retaining, I'm sure, some information that only you 
know.
    Mr. Mueller. We are making use of newer media, on Facebook 
and the like, and in the course of our investigation in 
Benghazi you can go on our Web site and find stills from the 
videos.
    Mr. Issa. Selectively picked while others were retained.
    Mr. Mueller. Picked because we want people to come forward. 
We did the same thing in Boston. The way we were able to 
identify the two responsible there was to focus in on the--
identify them leaving the--at the scene and identifying them 
afterwards and publicizing their pictures.
    Mr. Issa. Lastly, the people responsible for Benghazi to 
our knowledge are not U.S. persons. Therefore, if you knew the 
location of them, wouldn't they be eligible for a presidential-
ordered drone strike, no matter what country they were in?
    Chairman Goodlatte. The time of the gentleman has expired. 
The Director will be allowed to answer the question.
    Mr. Mueller. That could perhaps be answered by others than 
I who are more familiar with the ins and outs of the regime for 
undertaking such activity.
    Mr. Issa. But to your knowledge, it would be consistent 
with other drone strikes ordered by the President?
    Mr. Mueller. Again, I'm not that familiar with other drone 
strikes and I'd have to try to defer from answering that 
particular question on lack of knowledge and probably legal 
ability as well.
    Mr. Issa. Okay. Well, with the Chairman's indulgence for 10 
seconds, Director, I want to thank you for your long years of 
service and for all that you've done for America. This is 
always a tough place to come, but you're always welcome.
    Mr. Mueller. Thank you, sir.
    Mr. Goodlatte. The Chair thanks the gentleman.
    The gentlewoman from Texas, Ms. Jackson Lee, is recognized 
for 5 minutes.
    Ms. Jackson Lee. Let me start by saying, Director, we have 
interacted with each other for the past 11 years, and I want to 
thank you for your service. You are particularly one that I 
admire. Having graduated from the University of Virginia School 
of Law, you are obviously a very wise man. So, fellow alum, let 
me thank you and know that we will show no bias this morning, 
but I do want to thank you for your service.
    One of the points that seemingly has not penetrated into 
this Committee is the enormous hit that the FBI is going to 
take on sequestration. You mentioned $550 million, $700 million 
in 2014, the other was 2013. A loss of 2,200, I think you said, 
1,400.
    That is going to be somewhat somewhat devastating, is that 
correct?
    Mr. Mueller. Yes.
    Ms. Jackson Lee. And the FBI has had a vigorous influence 
on the civil rights investigations of America. Yesterday was 
the 50th anniversary of the death of Medgar Evers. Would that 
impact a variety of responsibilities that the FBI has, 
including civil rights enforcement?
    Mr. Mueller. I can't go that far because let me tell you 
that when we get faced with cuts we prioritize. We would not 
cut counterterrorism, we would not cut counterintelligence, we 
would not cut cyber. The two principal criminal programs are 
public corruption and civil rights. They will be----
    Ms. Jackson Lee. So you would be tight, you would be tight, 
but you would try to do it, but you would be tight in other 
areas.
    Mr. Mueller. We would be tight. And as we go down that list 
of priorities we will be cutting and the support that you get 
in those investigations would be cut----
    Ms. Jackson Lee. And that's very important.
    Let me just ask you about gun legislation. You are a lawyer 
and a strong advocate, I know, of the Constitution, the Bill of 
Rights. Would a gun storage bill, a universal background 
check--when I say that, requiring people to store their guns, 
universal background checks--would that seemingly infringe on 
the Second Amendment, just on its face?
    Mr. Mueller. The one thing I am not is a constitutional 
lawyer. And I understand the thrust of the question. And I 
understand----
    Ms. Jackson Lee. Would good laws help make us safer 
possibly?
    Mr. Mueller. We can always do more.
    Ms. Jackson Lee. Thank you very much.
    Let me move to this question of the emails and the various 
public discussion, which I think is good. Do you think that we 
could have a significant release or significant construction 
interpretation of Section 501 decisions that could be 
declassified in a manner consistent with the protection of 
national security intelligence sources, methods, and properly 
classified and sensitive information, meaning that the 
decisions of the FISA Court be declassified, keeping in mind 
under the restraints of national security, classified 
intelligence sources, et cetera? Could that occur?
    Mr. Mueller. I have to defer to the Department of Justice 
on that because that relates to the protocols that are set up 
not just by the Department of Justice, but by the FISA Court as 
well.
    Ms. Jackson Lee. And so opinions of the FISA Court, you 
think, disclosing them, you as an investigator, if it was 
protecting other classified, would not be open to the public 
and be reasonable?
    Mr. Mueller. Well, I would think that, no, there are 
absolutely in those opinions are matters that absolutely should 
remain classified.
    Ms. Jackson Lee. But some could--if they would keep that 
classified, others could be released?
    Mr. Mueller. I don't know that for a fact.
    Ms. Jackson Lee. With respect to Section 501, it speaks to 
tangible things that are part of this investigation. Do you 
think Section 501, that is the issue of application for order 
of investigation, could be narrowed somewhat?
    Mr. Mueller. I'm just not familiar with what you are 
talking about, ma'am. Section 501?
    Ms. Jackson Lee. It's 215, codified 501, Section 215.
    Mr. Mueller. Oh, 215. I'm sorry.
    Ms. Jackson Lee. Whether or not that would be codified, 
narrowed a little bit from its broadness, which is how we have 
gotten to where we are today.
    Mr. Mueller. I think there can be a discussion as to the 
scope of 215, understanding that the purpose of it, but also 
the impact on privacy----
    Ms. Jackson Lee. Well, let me ask these two quick 
questions.
    Do you think what we have done over the past--what we have 
been disclosed is so broad that we undermine what we need to do 
by not narrowly focusing? And then lastly, with respect to the 
Boston Marathon case, I want to quickly get to that. Have you 
in your investigation determined why the dots were not 
connected as they looked at the two perpetrators' travel 
overseas, coming back, have you found the smoking gun on that 
issue? Can you go first to the question of narrowing this broad 
trolling, it seems to be, and still get where you needed to go.
    Mr. Mueller. Well, I wouldn't call it broad trolling, 
needless to say. I see it appropriate to the goal that you 
have. And to the extent that you narrow it, you narrow the dots 
that are available. You will narrow the dots that are available 
that may be that dot that prevents the next Boston.
    On the Boston case, I think we did a very thorough job when 
he came to our attention. I do think there could have been 
better exchange of information, particularly by the Russians 
earlier on. That may have helped. And there were other things 
in terms of alerting the travel that we are fixing. But even if 
we fix that, even if that had been fixed prior to the Boston 
bombing, I do not think it would have stopped it.
    But I go back to the point, yes, you can narrow, yes, you 
can draw a balance, but you are going to minimize the dots.
    Ms. Jackson Lee. Let me thank the gentleman again for his 
service. Thank you.
    Mr. Goodlatte. The time of the gentlewoman has expired.
    Ms. Jackson Lee. Thank you. I yield back. Thank you again 
for your service.
    Mr. Goodlatte. The gentleman from Virginia, Mr. Forbes, is 
recognized for 5 minutes.
    Mr. Forbes. Mr. Director, I want to join the chorus of 
those complimenting you for your service. The unfortunate thing 
is so many Americans will never thank you because they don't 
know the harm that you kept from befalling them because of your 
efforts. But we thank you for that.
    You have heard a lot of Members who asked you about an 
application for a search warrant. I gave a copy of that 
application to your staff before this hearing, and I think they 
have it to present to you now. But for the record, it's case 
1:10-MJ-00291-AK document 20. With the Chairman's permission 
I'd ask that that be made a part of the record of this hearing.
    Mr. Goodlatte. Without objection, so ordered.
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    


                               __________
    Mr. Forbes. And, Mr. Director, is it not true that the 
standard for arresting an individual for committing a crime and 
the standard for charging and individual for committing a crime 
are both probable cause?
    Mr. Mueller. Yes.
    Mr. Forbes. If indeed that is the standard for arresting an 
individual and charging them with a crime, in this application 
for a search warrant that we presented to you and you have been 
questioned about several times today your special agent, 
Reginald B. Reyes, certifies in this application that there is 
probable cause to believe that the individual involved in here, 
which was James Rosen, had committed or is committing a crime. 
And yet your testimony, as I understand it, today is that there 
was no potential for prosecution.
    My question to you today is, if you have an individual that 
you know has reached the standard for arrest, the standard for 
charging with a crime and one of your agents has attested to 
that, how can you say, what standards does the Department has 
that says that there is no potential that that individual will 
be prosecuted?
    Mr. Mueller. There are any number of occasions where we may 
have probable cause, or facts that would purport to establish 
probable cause to charge somebody with something, and we do 
not.
    Mr. Forbes. No, no, I understand that. I understand that. 
But how do you say before you even get the evidence, that you 
have reached that standard to charge someone to prosecution, 
how do you say that there is no potential that you will 
prosecute this individual when you haven't even obtained the 
evidence to know the extent of that crime?
    Mr. Mueller. Because a lot of the time we include search 
warrants and we have got cooperators who are----
    Mr. Forbes. But in this case of Mr. Rosen's can you tell us 
if he was cooperating, or if there is any guidelines with the 
Department?
    Mr. Mueller. That was not my response was to your question 
before----
    Mr. Forbes. Okay.
    Mr. Mueller [continuing]. That there are many occasions----
    Mr. Forbes. In this occasion with Mr. Rosen.
    Mr. Mueller. Let me finish, sir. There are many occasions 
where you have probable cause to believe a person has committed 
a crime and you have no intention whatsoever to prosecute.
    Mr. Forbes. Absolutely, I know that. But in this case can 
you tell us what guidelines would allow the Department, allow 
you to testify today under oath that there was no potential to 
prosecute Mr. Rosen if your agent had said that you had 
probable cause to charge him and to arrest him and you had not 
even gotten the results from the search warrant yet?
    Mr. Mueller. I'm not certain I understand the question.
    Mr. Forbes. Then let me rephrase it and be very specific. 
You have stated that there was no potential for prosecution for 
Mr. Rosen. A search warrant was issued. At the time this search 
warrant was issued, your agent attested to the fact that that 
there was probable cause, the standard to both arrest him and 
charge him. Yet your statement is that there was no potential 
for prosecution at that time for Mr. Rosen. And my question is, 
what guideline, or on what basis do you say that there wasn't 
even the potential for prosecution?
    Mr. Mueller. I'd have to go back and look at my answer, but 
I am not certain I stated it in that way.
    Mr. Forbes. So then would you say there was at least a 
potential for prosecution when the search warrant----
    Mr. Mueller. I am not going to say that because I am not 
the prosecutor on the case. I did not have the case. And those 
decisions are being made by----
    Mr. Forbes. I know they're ultimately being made, but you 
can't state today that there was no potential for prosecution, 
can you?
    Mr. Mueller. I'm not going to state it one way or the 
other.
    Mr. Forbes. Okay, let me ask you this question then. I'll 
shift totally because you don't want to answer that question.
    Since the President has been in office, we have had a 40 
percent increase in gang membership in the country. We know 
that 48 percent of violent crimes are committed by gangs in 
most jurisdictions; 90 percent in some States, including the 
President's home State of Illinois. Can you tell us what has 
been the cause of the uptick in gang activity of almost 40 
percent since the President has been in office?
    Mr. Mueller. Well, at the same time you talk about the 
uptick in the gang activity, and it has grown over a period of 
time, and I don't think there is any person who can say there 
is any one cause of increase of gang activity. It goes to a 
number of factors.
    But by the same token, there has been a substantial, large 
reduction in violent crime throughout the country. New York, 
Chicago, there is an article, as you are familiar with, I am 
sure, the reduction of homicides in Chicago this fiscal year, 
or this year, not the fiscal year. And consequently, on the one 
hand you will have certain communities who have an uptick in 
gang violence, but you also have a number of communities who 
have effectively addressed that gang violence with new ways of 
community policing.
    Mr. Forbes. Thank you, Mr. Director, but the increase has 
been 40 percent.
    And with that, Mr. Chairman, I yield back.
    Mr. Goodlatte. The Chair thanks the gentleman.
    The gentleman from Tennessee, Mr. Cohen, is recognized for 
5 minutes.
    Mr. Cohen. Thank you, Mr. Chairman.
    Director Mueller, I had the opportunity to go to Russia 
with a CODEL a couple of weeks ago, and the FSB deputy director 
met with us and the head of counterintelligence. They said that 
they had sent a memo to you, or I believe it was to the FBI, 
and I presume you got it, in 2011 about the Tsarnaevs, that 
they had been radicalized and they were fearful that they may 
be some threat either to us or to Russia if they returned and 
wanted some information about when they would return. They 
thought there were some laws that maybe impeded your ability to 
do a complete study or carry your study for a longer period of 
time.
    I'd like to ask you this. First, did you get that paper 
from the FSB, or from the counterintelligence about the 
Tsarnaevs, number one? Number two, why could you not follow up 
on it further than you did and is there legislation needed to 
be passed to allow you to do that, that would be keeping within 
the rights of American citizens? And three, are the relations 
between the FBI and the FSB improved to where we can share 
intelligence to work against the threat of radical Islam and 
terrorism in both of our countries?
    Mr. Mueller. In response to number one, yes, we did get 
what we call a tear line through our legat in Moscow in March 
of 2011, an agent was assigned to it and an agent did a 
thorough investigation; ran through all of the records checks; 
went to Bunker Hill Community College where he had spent time; 
did neighborhood research before he then interviewed the 
parents; and finally interviewed Tamerlan himself.
    After all of those efforts, we did not find any indication 
that he was involved with terrorism, nor did we find 
predication for further investigative efforts such as wiretap 
or what have you.
    We then reported the extent of that investigation back to 
the Russians and asked for any additional material they had 
that would assist us in furthering up additional investigation. 
And we got after two--actually three requests--we got no 
response from them.
    We did, I think, all of the investigation that could have 
been done. Any additional information at that time I do not 
believe would have turned up more evidence of his ultimate 
radicalization.
    And finally, in terms of the FSB, yes, we had a chilly 
period with the FSB. I, as you I think know, met with General 
Bortnikov several weeks before you did after Boston. They have 
been helpful to our investigation. We hope that we can continue 
to exchange information to prevent further terrorist attacks, 
particularly in the United States.
    Mr. Cohen. Why was there not an ability to let them know 
that he returned to Dagestan, which was their request to know 
that?
    Mr. Mueller. Because we did not pick that up. When he got 
on the plane, there had been--and there were several reasons. 
And that is one of the----
    Mr. Cohen. What are the reasons? The impression that I got, 
and this is a big leap, but they said that if they would have 
known, if you would have followed up and they would have known 
he was coming back to Dagestan, that possibly the Boston 
Marathon bombing would not have occurred. I presume that means 
they would have offed him, which would have been great.
    Mr. Mueller. Perhaps. In this particular case, the warning 
went to the task force and--not the warning, I should say the 
fact of his having left went to the task force, and for a 
variety of reasons, not the least of which is the case had been 
closed some time ago, that particular indication that he was on 
his way back to Russia did not get acted upon.
    Mr. Cohen. Is there something that needs to be corrected? 
Has it been corrected? Is there a law that needs to be changed?
    Mr. Mueller. Yes, yes. No, it does not need a law. It 
requires a correction to our procedures, which we have done, to 
assure that every such notice has a recorded record. It cannot 
be done informally, somebody talking across the table.
    Mr. Cohen. Satisfied, thank you, sir.
    Let me ask you this other man, Todashev, who was killed in 
Florida, apparently was one of the guys that killed the three 
marijuana--you know, to get marijuana in here somewhere--those 
three marijuana guys up in Massachusetts.
    Mr. Mueller. I'm not certain what you're talking about.
    Mr. Cohen. There was another fellow that was a friend of 
Tamerlan's who was in Florida and being investigated by FBI 
agents and they killed him. You remember that, don't you?
    Mr. Mueller. I would say that there was a response to a 
threat that resulted in----
    Mr. Cohen. What was the threat? Because at first the 
reports were there was a knife or something, and then later 
they said there was no weapon.
    Mr. Mueller. That's still under investigation.
    Mr. Cohen. How did you get knowledge of Todashev and his 
involvement in this crime? Was it through the FSB or was it 
your own investigation?
    Mr. Mueller. Actually, it was a number of ways, including 
one of the programs that is under scrutiny today.
    Mr. Cohen. What do you mean, 215 and 702?
    Mr. Goodlatte. The time of the gentleman has expired. The 
Director can answer that question.
    Mr. Cohen. Yeah, is it 215 and 702, is that what you mean?
    Mr. Mueller. There was effort done in terms of that 
particular program as well, but I will tell you that we came 
upon him in a variety of ways.
    Mr. Cohen. Thank you, sir.
    Thank you, Mr. Chairman.
    Mr. Goodlatte. The gentleman from Iowa, Mr. King, is 
recognized for 5 minutes.
    Mr. King. Thanks, Mr. Chairman.
    Thanks, Director, for your testimony and your services.
    Following up on the question, it wasn't clear to me, was 
the initial information on the gentleman referred to, Ibragim 
Todashev, was that original information from the Russians?
    Mr. Mueller. You're saying----
    Mr. King. I think I heard you say there was a variety of 
sources that brought you to him.
    Mr. Mueller. You're talking about the individual from 
Florida?
    Mr. King. Yes, who was murdered--or killed, excuse me. I 
don't want to imply that murder is an FBI activity.
    Mr. Mueller. It came from several leads that we were 
following here domestically.
    Mr. King. And was there an initial lead that perhaps came 
from the Russians?
    Mr. Mueller. I don't recall. There may have been, but I 
can't recall that there was, that he had been identified by the 
Russians.
    Mr. King. Are you aware of a letter from the FSB dated 
March 4, 2011?
    Mr. Mueller. Yes.
    Mr. King. And was that letter initiated by the Russians, by 
the FSB?
    Mr. Mueller. Yes.
    Mr. King. And that letter sat in a file for a while, and 
your response to that was how soon after that?
    Mr. Mueller. It did not sit in the file for a while. It was 
acted on very quickly afterwards.
    Mr. King. Did you have domestic information on Tamerlan 
prior to that, prior to that date of----
    Mr. Mueller. Did we have information on him prior to that 
date?
    Mr. King. Yes.
    Mr. Mueller. I don't believe so. Now, wait, let me just 
say, his name had come up----
    Mr. King. Okay.
    Mr. Mueller [continuing]. In two other cases. Those two 
other cases, the individuals had their cases closed. So he was 
one or two person away.
    Mr. King. So it is reasonable that the letter of March 4, 
2011, refocused the FBI on Tamerlan?
    Mr. Mueller. Absolutely.
    Mr. King. And then are you aware of a letter also from the 
FSB dated April 22nd of 2013?
    Mr. Mueller. Yes.
    Mr. King. And those two letters, are they classified?
    Mr. Mueller. I am not certain what their classification 
level is.
    Mr. King. I would ask you to take a look at both of those 
letters and consider, if they are classified, to release them. 
The subject matter of that and the information within it, I 
think that Mr. Cohen and I would agree, is something that would 
be useful for the American people to be aware of.
    And for me, I was struck by the amount of domestic 
information that the Russians had on activity inside the United 
States on Tamerlan Tsarnaev, and that seemed to be the first 
information that flowed forth. Is it also, to the public is my 
reference, is it also possible to reconstruct, going backward 
through the timeline, a place or places where there might have 
been an intervention that could have prevented the Boston 
bombing, knowing what we knew at the time?
    Mr. Mueller. You know, every time we have an incident like 
this we go back and scrub it hard. I indicated one area, and 
that is notification of the subject traveling should have been 
documented. Whatever action was taken as a result of that 
notification from borders and customs should have been 
documented. But in looking back at it, I do believe that his 
radicalization went forward substantially during probably the 
time he went to--was in Russia, but I do not believe that he 
was on the radar screen of the Russian authorities when he was 
back there.
    Mr. King. It's also my understanding. But as far as the 
radicalization that took place, do you see that as a long 
process that perhaps started when he was younger and was a 
product of his home country, the United States and back to his 
home country, or how do you view the radicalization?
    Mr. Mueller. I think the best you can say is maybe in fits 
and starts.
    Mr. King. Okay. And I think that's fair. The security, 
though, when we have people coming in from, let's say, the 
North Caucasus region, who are persons that come from, let's 
say, a profile that would fit persons of interest from Nations 
of interest, do we do inquiries with the Russians or any other 
country to do background checks on those individuals that might 
be seeking asylum here in the United States that come from 
those areas?
    Mr. Mueller. You'd really have to turn to DHS in terms of 
what they consider, in terms of evaluating the asylum. Well, I 
think really DHS----
    Mr. King. But don't they subcontract that out to you? 
Doesn't USCIS ask FBI to do the background checks?
    Mr. Mueller. I don't think they contracted us.
    Mr. King. Shorthand.
    Mr. Mueller. I think they run records checks through us to 
see what derogatory material we may have on somebody who's 
seeking asylum.
    Mr. King. But are you aware of any inquiries that might ask 
the Russians to give us some advice on who they might be 
watching that's coming into the United States under asylum, 
which is how Tamerlan got here?
    Mr. Mueller. I don't know, because I can't speak to what 
the FSB does in all of its cases, but if they have a person 
they believe to be a terrorist, I would say often they give us 
that information and ask for assistance from us to address that 
particular person.
    Mr. King. Let me suggest that in a direct question of Mr. 
Beseda's, who's second in command at FSB, he said that those 
kind of inquiries, he couldn't say it never happened, but as he 
looked at the other people on the panel, they seemed to think 
there was one inquiry perhaps 10 years ago. His specific 
response was those inquiries are nil.
    So I'm going to suggest to this panel that we need to take 
a good look at how we do background checks on people that are 
coming from Nations of interest, who likely are persons of 
interest, to tighten up our security. And I think that was a 
window, and there might be hundreds and perhaps more than 
hundreds that come through a window like that.
    I thank you for your service, and I yield back the balance 
of my time.
    Mr. Goodlatte. The time of the gentleman has expired.
    The Chair recognizes the gentleman from Georgia, Mr. 
Johnson, for 5 minutes.
    Mr. Johnson. Thank you, Mr. Chairman.
    Director Mueller, thank you for your many years of 
exemplary service to the Nation. This will probably our last 
time seeing you before this particular Committee. And I wanted 
to do that. I wanted to give you that.
    And I will also agree with you that as terrorism, both 
foreign and domestic, changes and adapts, our law enforcement 
capabilities have to do the same. And so if data collection 
will help us remain secure in our personal liberties, then 
that's a discussion that we should have. And if we don't have 
security, then our civil liberties are definitely threatened. 
And I know that everyone can agree with that.
    And this is an issue, unlike those that some of my 
colleagues on the other side of the aisle are looking for out 
in the backyard--Benghazi, IRS, the Rosen subpoena--we can deal 
with those things, but there are some issues right at the front 
door knocking loudly. And I think the loudest knock is coming 
from data collection and secrecy in government. And so my 
questions would be regarding that.
    Why is it necessary for data collection, internal domestic 
data collection, to be a secret? Why is it that that program 
has to be a secret? I disagree with the notion that public 
knowledge of those programs can undermine our ability to 
respond to terroristic or terrorist threats.
    And I also want to applaud the work of companies like 
Google that work very hard to make government legal requests as 
transparent as possible. This week Google requested permission 
from you and the Attorney General to publish aggregate numbers 
of national security requests, including FISA disclosures, as 
part of its transparency report.
    Wouldn't the aggregate publication of national security 
requests, kind of like metadata, wouldn't that better serve the 
conversation on civil liberties and national security than 
keeping Americans in the dark? Because as we keep Americans in 
the dark, it tends to break down the trust that Americans have 
for government. I'm really concerned that we have too much 
classified information, and I'm disturbed or perplexed, 
actually, about who actually decides what should be classified 
and how do we go about unclassifying things?
    So I know that's a couple of questions. I want to give you 
a chance to respond.
    Mr. Mueller. I do think that there is quite obviously a 
tension between the secrecy attendant, classification attendant 
to certain programs and documents, and I am not going to say 
that there aren't occasions where there are things that are 
overclassified. When it comes to identifying the way we handle 
communications and all their iterations, particularly in this 
day and age when you have any number of ways to communicate, 
whether it be email, chat, and a variety of alternate ways of 
communicating, to the extent that those were associated with 
terrorist groups, or actually those associated with the 
Chinese, the Russians, the Iranians, and the others, to the 
extent that that they have information as to how we operate in 
terms of how we identifying----
    Mr. Johnson. Well, how we may use those programs, but the 
programs themselves, why is it that just a broad disclosure 
that, yes, Americans, we are collecting metadata from your 
phone records and this is why we are doing that, and then you 
explain the intricacies of what you're doing, what you're not 
doing. You're not talking about any specific programs or 
operations--excuse me, no specific operations or operatives, 
those kinds of things, but just the existence of the program. 
Americans need to know what is being done and why.
    Mr. Mueller. All I would say is, there is a balance to 
take. I would urge you to, in the classified briefings, to ask 
that question and see what----
    Mr. Johnson. Well, I have, and I've never gotten a 
satisfactory answer.
    Mr. Mueller. Well, I can tell you because whenever there 
are disclosures like this, we see, through other programs we 
have and intercepted communications, we see exactly what those 
individuals are doing, the terrorists, to change their 
communications.
    Mr. Goodlatte. The time of the gentleman has expired.
    Mr. Johnson. There will always be that adaptation to what 
we're doing.
    Mr. Goodlatte. The Chair recognizes the gentleman from 
Texas, Mr. Gohmert, for 5 minutes.
    Mr. Gohmert. Thank you, Mr. Chairman.
    And thank you, Director. I'm not going to comment about 
your being the last time here. I did that a few years ago, and 
didn't turn out right. But anyway, I want to follow up on what 
my friend Mr. Johnson was talking about, the overclassification 
issue, because it does seem to be a problem and certainly an 
issue.
    There is an article today entitled ``Obama's Snooping 
Excludes Mosques, Missed Boston Bombers.'' I wasn't aware of 
the--and I went to the FBI Web site--I wasn't aware of the 
Sensitive Operations Review Committee, so I wanted to find out 
what it was. Well, apparently, if something involves things 
like news media, religious or domestic, political organization, 
things like that, then it has to go before the Sensitive 
Operations Review Committee in order to be approved. And here 
is the information on the data about if it's a political 
organization, like a Tea Party, a religious organization, like 
evangelical Christians, which the Department of Homeland 
Security is so afraid of, or a mosque, apparently, it has to 
get approval here, and we already knew and we have gone through 
with--and it seemed ridiculous to me and Michele Bachmann and 
Lynn Westmoreland that the material we were reviewing that was 
purged by subject matter experts was classified.
    It would seem that if you're trying to make the Islamists 
feel better about training materials, you'd want them to see 
what they were removed. And I'm just curious, why are the 
subject matter experts that the FBI had go through all their 
training material and purge anything that might be offensive to 
an Islamist, why was that needed to be classified? I would 
think they'd be heroes in the Islamic world for getting that 
stuff out. Why was that classified?
    Mr. Mueller. Well, we went through a thorough review. I 
think you have been fully briefed on it. In those materials are 
examples of cases----
    Mr. Gohmert. Well, I need you, I have just a short time, I 
need you to answer questions, and my question is, why were the 
subject matter experts' identity classified?
    Mr. Mueller. Because the process in whole had within its 
parameters all information that we have in the Bureau, and if I 
am not mistaken, we gave you the names of the individuals.
    Mr. Gohmert. In a classified setting. And so I'd get 
prosecuted if I revealed them. And I don't know why you can't 
make those public, so the people would know. But obviously, you 
feel----
    Mr. Mueller. I will look at that and----
    Mr. Gohmert. Well, and also I want to go back to Boston. 
You said things like, and out of the example what you said, the 
FBI did an excellent job, did a thorough job, don't know what 
else we could have done. And according to the Russians, there 
was a great deal more that could have been done. And when we 
find out about this Sensitive Operations Review Committee, and 
as this article points out, if it's true, it says that we don't 
know who the chairman and members are of the Sensitive 
Operations Review Committee, who the staff, that's kept secret. 
The FBI never canvassed Boston mosques until 4 days after the 
April 15 attacks.
    If the Russians tell you that someone has been radicalized 
and you go check and see the mosque that they went to, then you 
get the articles of incorporation, as I have, for the group 
that created the Boston mosque where these Tsarnaevs attended, 
and you find out the name Al-Amoudi, which you will remember, 
because while you were FBI Director this man who was so helpful 
to the Clinton administration with so many big things, he gets 
arrested at Dulles Airport by the FBI and he is now doing over 
20 years for supporting terrorism.
    This is the guy that started the mosque where your 
Tsarnaevs were attending, and you didn't even bother to go 
check about the mosque? And then when you have the pictures, 
why did no one go to the mosque and say, who are these guys? 
They may attend here. Why was that not done since such a 
thorough job was done?
    Mr. Mueller. Your facts are not altogether----
    Mr. Gohmert. I point out specifically.
    Mr. Mueller. May I finish my----
    Mr. Gohmert. Point out specifically. Sir, if you're going 
to call me a liar, you need to point out specifically where any 
facts are wrong.
    Mr. Mueller. We went to the mosque prior to Boston.
    Mr. Gohmert. Prior to Boston?
    Mr. Mueller. Prior to Boston happening, we were in that 
mosque talking to the imam several months beforehand as part of 
our outreach efforts.
    Mr. Gohmert. Were you aware that those mosques were started 
by Al-Amoudi?
    Mr. Mueller. I've answered the question, sir.
    Mr. Gohmert. You didn't answer the question. Were you aware 
that they were started by Al-Amoudi?
    Mr. Mueller. No.
    Mr. Gohmert. You were not. Okay. Thank you.
    Mr. Goodlatte. The time of the gentleman has expired.
    The Chair recognizes the gentleman from Puerto Rico, Mr. 
Pierluisi, for 5 minutes.
    Mr. Pierluisi. Thank you, Mr. Chairman.
    Director Mueller, I want to join my colleagues in thanking 
you for your service to our Nation. You will leave a lasting 
legacy and large shoes to fill.
    As you have recognized, the FBI's role since 9/11 has 
evolved and expanded. Prior to the attack, the agency's primary 
responsibility was to fight domestic crime, including violent 
crime. Now the Bureau also stands at the forefront of the 
government's efforts to prevent and respond to terrorism. And 
as the tragic events in Boston illustrate, the stakes could not 
be higher. Conducting both law enforcement and counterterrorism 
operations is a large and complex portfolio, and I know you are 
constantly reviewing the allocation of personnel and resources 
to ensure that both missions receive the attention they 
deserve.
    The example of Puerto Rico, though, a U.S. territory, home 
to 3.7 million American citizens, underscores why it is 
important for the FBI, notwithstanding its transformation in 
the wake of 9/11, to continue to place great emphasis on its 
traditional role as a crime-fighting agency. As Chairman 
Michael McCaul noted at a hearing last year in the Homeland 
Security Committee, the people of Puerto Rico are under siege. 
Like all American citizens, my constituents are targets for al-
Qaeda and its affiliated organizations. They, too, worry about 
terrorism when they board a plane, visit a tourist site with 
their children, or travel abroad. Indeed, in 1972, 16 American 
citizens from Puerto Rico were killed and many more were 
wounded at an airport in Israel, the victims of one of the 
first incidents of international terrorism.
    But the fact is, my constituents are dying violent deaths 
every day and they are not being killed in terrorist attacks. 
Rather, they are dying in huge numbers because of the toxic mix 
of drugs, guns, local gangs, and transnational criminal 
organizations.
    I know you are familiar with the statistics, but they bear 
repetition. In the 10-year period between 2003 and 2012, there 
were 8,600 homicide victims in Puerto Rico. The year 2011 was 
the most violent in the territory's history with 1,164 murders. 
That is the equivalent of over three homicides a day, every 
day. It is about the same number of homicide deaths as Texas, 
which has a population that is seven times that of Puerto Rico.
    Although the number of murders in Puerto Rico decreased in 
2012, the island's per capita murder rate was still about three 
times higher than any State and about six times higher than the 
U.S. national average.
    As you know, I have urged the Federal Government to surge 
resources to Puerto Rico to alleviate this crisis. Earlier this 
year, following a visit by Secretary Napolitano to Puerto Rico, 
DHS decided to substantially increase its presence on the 
island. Next week, I am meeting with a senior advisor to the 
Secretary to receive an update on the steps that DHS component 
agencies are taking and the results that we can expect to see.
    Yesterday, the Appropriations Committee approved the 
Defense Appropriations Act for Fiscal Year 2014, and that bill 
directs the Secretary of Defense to provide a report on the 
counterdrug activities that DOD is undertaking or intends to 
undertake to support law enforcement operations in and around 
Puerto Rico.
    In March, I wrote a detailed letter to Attorney General 
Holder, copying you, reiterating my request that DOJ surge 
resources to Puerto Rico. It is clear that the FBI, along with 
DEA and ATF, needs to do more, much more to reduce the level of 
violence in Puerto Rico and to reassure my constituents that 
their national government cares about them and is working every 
day to protect them and their families.
    Director Mueller, can you please tell me what concrete 
steps the FBI is taking or will take to reduce the 
exceptionally high level of violence in Puerto Rico? The threat 
has evolved in terms of both its nature and its severity, and 
it is critical that the FBI's response evolve as well. The time 
for business as usual, is over, Director.
    Mr. Mueller. Well, as we have discussed previously, 
Congressman, I am tremendously sympathetic to what is happening 
in Puerto Rico as we go along. We have made advances. We have 
added hybrid squads to cover any kind of crimes. We have got 
four violent gang Safe Street Task Forces. That is more than I 
think any office in the country. We have an allocation of 313 
full-time agents; they are fully staffed. We're about five 
down.
    But I can tell you, under this term of sequestration, the 
possibility of allocating additional resources to Puerto Rico 
is very, very difficult. I, having been a homicide prosecutor, 
I think I have some understanding of the devastation to 
communities that are beset by violent crime. I wish we could do 
more. I wish we had the resources to surge. I know we're 
working closely with ATF, DEA, and ourselves to combine our 
resources along with the Puerto Rican National Police, and 
we're having some success. All I can tell you is that I wish I 
could do more at this point, but given the budget constraints, 
it would be very difficult.
    Mr. Goodlatte. The time of the gentleman has expired.
    The Chair recognizes the gentleman from Ohio, Mr. Jordan, 
for 5 minutes.
    Mr. Jordan. Thank you, Mr. Chairman.
    Director, this past Sunday, Mr. Cummings, Ranking Member on 
the Oversight Committee, said based on everything he's seen 
regarding the IRS case, based on everything he's seen, the case 
is solved. Is Mr. Cummings accurate in his assessment.
    Mr. Mueller. Could you repeat that, if you would?
    Mr. Jordan. Based on everything I have seen, according to 
Mr. Cummings, the case is solved. This is regarding the IRS 
scandal.
    Mr. Mueller. Which case?
    Mr. Jordan. The IRS case.
    Mr. Mueller. The IRS case?
    Mr. Jordan. Yes.
    Mr. Mueller. The IRS case is currently under investigation, 
and basically it's just started.
    Mr. Jordan. Yeah. What can you tell us? I mean, you started 
a month ago. What can you tell us about this? Have you found 
any--have you found the now infamous two rogue agents? Have you 
discovered who those people are?
    Mr. Mueller. Needless to say, because it's under 
investigation, I can't give out any of the details.
    Mr. Jordan. Can you tell me some basics? Can you tell me 
how many agents, investigators you have assigned to the case?
    Mr. Mueller. I may be able to do that, but I'd have to get 
back to you.
    Mr. Jordan. Can you tell me who the lead investigator is?
    Mr. Mueller. Off the top of my head, no.
    Mr. Jordan. This is the most important issue in front of 
the country the last 6 weeks, you don't know who's heading up 
the case, who the lead investigator is?
    Mr. Mueller. At this juncture no, I do not know who they 
are.
    Mr. Jordan. Can you get that information to us? We would 
like to know. We would like to know how many people you have 
assigned to look into this situation.
    Mr. Mueller. I have not had a recent briefing on it. I had 
a briefing on it when we first initiated it, but I have not had 
a recent briefing as to where we are.
    Mr. Jordan. So you don't know who is leading the case?
    Mr. Mueller. I do not know who is the lead agent.
    Mr. Jordan. Do you know if you have talked to any of the 
victims? Have you talked to any of the groups who were targeted 
by their government? Have you met with any of the tea party 
folks since May 14, 2013?
    Mr. Mueller. I don't know what the status of the interviews 
are by the team that's on it.
    Mr. Jordan. Would you expect that that's been done?
    Mr. Mueller. Certainly at some point in time in the course 
of the investigation it will be done, but generally at the 
outset of the investigation you get the documents so that you 
can have a----
    Mr. Jordan. But don't you normally talk to the victims?
    Mr. Mueller. I do not know specifically----
    Mr. Jordan. In your extensive record and history in 
investigative work, don't you typically talk to the victim? It 
is a criminal investigation. Don't you typically talk to the 
victims pretty soon?
    Mr. Mueller. Absolutely. I'm sure it will happen.
    Mr. Jordan. So did the FBI contact any of these same 
victims, were they contacted by the FBI prior to the 
investigation? When these same groups were applying for tax-
exempt status, did the FBI pay some of these individuals a 
visit?
    Mr. Mueller. I do not know.
    Mr. Jordan. Pardon?
    Mr. Mueller. I do not know.
    Mr. Jordan. You don't know?
    Mr. Mueller. I do not know.
    Mr. Jordan. Some of them testified that they were paid a 
visit by the FBI. Specifically, Catherine Engelbrecht in Texas 
said she was visited by the FBI. She was head of True the Vote. 
Is that true or not?
    Mr. Mueller. Do not know.
    Mr. Jordan. You do not know, okay. If the FBI did contact 
people involved in the IRS scandal, victims groups, prior to 
the investigation when they were applying for tax-exempt 
status, why was that the case? Why would you be looking into 
it? And was there possibly coordination with the IRS----
    Mr. Mueller. You are asking me details about the 
investigation. I would be happy to get back to you.
    Mr. Jordan. I'm not asking you details about the 
investigation. I'm saying, why were people targeted before the 
investigation started? Why were they contacted by the FBI, 
people who are now part of tea party groups who were targeted 
by the IRS?
    Mr. Mueller. You're asking questions about details of the 
investigation. I would be happy to take the questions.
    Mr. Jordan. That is not a detail about the investigation. 
That took place prior to the investigation starting.
    Mr. Mueller. May I finish? May I please finish? You are 
asking detailed questions about the investigation. I'd be happy 
to get back to you and answer those questions that I can, 
understanding ongoing----
    Mr. Jordan. I'm asking basic questions about the 
investigation, like who's heading it up, and you can't tell me 
that. Can you get back to me on any group who was targeted by 
the IRS, who the FBI visited with prior to the investigation 
starting while they were applying for tax. That would be 
important information for this Committee to have. Can you get 
that to me?
    Mr. Mueller. We'll look at the questions and try to 
respond.
    Mr. Jordan. Have you reviewed the Inspector General's 
report regarding the IRS scandal?
    Mr. Mueller. I have been through it, yes.
    Mr. Jordan. Do you have any concerns about the way the 
Inspector General did the report and collected information?
    Mr. Mueller. I did not focus on that at all. I was 
looking----
    Mr. Jordan. Well, let me ask you a couple things. Is it 
typically important for the investigator to have one of the 
central players in this, Ms. Holly Paz, who was Director of--
one of the key players at the Tax Exempt Division, sit in on 
all the interviews, almost all the interviews with employees in 
that division? Is that typically how an investigation is done?
    Mr. Mueller. I am not familiar with those circumstances. I 
understand what you are saying about those circumstances, so 
not being familiar with it, I can't----
    Mr. Jordan. In your time as an investigator is that how you 
would do interviews, with the boss sitting next to the person 
you are trying to get information from?
    Mr. Mueller. Well, again, I'm----
    Mr. Jordan. Is it appropriate for Holly--the Inspector 
General came out in a transcribed interview that our staff has 
done, the Oversight Committee staff has done, is it appropriate 
to have her collect the data and give it to the Inspector 
General?
    Mr. Mueller. I am not familiar with the----
    Mr. Jordan. If that happened, is that appropriate?
    Mr. Mueller. I'm not going to speculate.
    Mr. Jordan. Let me ask one last thing, because this did 
happen. Mr. Chairman, the last question.
    So is it appropriate when the Inspector General is doing 
his investigation, doing his audit, to give information to the 
very people he is investigating in the course of the 
investigation and not share that same information with the 
Oversight Committee? Specifically, May 30 of last year, the 
Inspector General told Doug Shulman that the terms tea party, 
patriot, 9/12 were used to identify groups and put them on a 
list. He told them that was going on at the IRS. He told them 
that a year ago. Four days later he told the general counsel at 
Treasury, Chris Meade, the same information, but did not share 
that with the Committee who asked for the investigation, the 
Committee who has oversight over the Inspector Generals in all 
Federal agencies, did not share that information with us. Is 
that typically how an investigation is supposed to work?
    Mr. Mueller. Again, you are talking about circumstances 
with which I am not familiar. Each investigation is a little 
bit different, and I really can't comment on what was 
appropriate in that particular investigation without knowing 
and sitting down and going through the facts.
    Mr. Jordan. But that's--if I could, Mr. Chairman, then I 
will stop--that's the point. You've had a month now to 
investigate. This has been the biggest story in the country and 
you can't even tell me who the lead investigator is. You can't 
tell me that actions the Inspector General took, which are not 
typically how investigations are done, you can't tell me if 
that's appropriate or not? This is not speculating. This is 
what happened and you can't tell me how many agents are 
assigned to the most important news story, maybe the most 
important----
    Mr. Goodlatte. The time of the gentleman has expired. The 
Director will be allowed to answer the question. And if he 
can't answer it today, we would definitely expect that he 
answer it in writing to us as promptly as possible.
    Mr. Mueller. Yeah, I would be happy to take your questions 
in writing, sir.
    Mr. Goodlatte. The Chair recognizes the gentlewoman from 
Washington, Ms. DelBene, for 5 minutes.
    Ms. DelBene. Thank you, Mr. Chair.
    And thank you, Mr. Director, for your service and for being 
with us here today.
    I happen to agree with those who believe that greater 
transparency and better data about the requests that government 
entities are making to Internet companies and providers will 
help inform the discussion that we're having about how to 
balance legitimate national security needs with privacy rights.
    I understand it was referred to a little bit earlier that 
Google sent a letter to you and Attorney General Holder earlier 
this week. I'm requesting that it be permitted to provide the 
reports of the number of FISA national security requests it 
receives as well as their scope. And I wondered if you could 
share with us what your response is to that request.
    Mr. Mueller. I think that's being looked at by Justice at 
this point.
    Ms. DelBene. Okay. Then earlier this year, Google did work 
with the Department of Justice and the FBI to disclose in broad 
strokes the number of national security letters that Google 
receives. And did Google's disclosures of these numbers harm 
national security in any way?
    Mr. Mueller. Well, let me just hypothesize without 
answering particularly. If you had such figures out there, 
would not somebody who wanted to have secure communications 
maybe make some decisions as a result of that information as to 
what, you know, as to what communications capability they use?
    Basically, there are issues that need to be discussed in 
the course of deciding what needs to be declassified. I think 
most of us in the government would love to be able to disclose 
more because it would be more understandable to persons, but 
you have the conflicting values of trying to protect the 
country and trying to protect that information that enables us 
to continuously identify and to intercept the communications of 
terrorists in an effort to thwart attacks. That's the conflict.
    Ms. DelBene. Thank you. The Committee is currently also 
considering reform of the Electronic Communications Privacy 
Act. And as you may know, the Senate Judiciary Committee 
recently reported reform legislation out of Committee. Members 
on both sides of the aisle seem to agree that we've failed to 
modernize our law to align with reasonable expectations of 
privacy, especially in the digital age.
    For routine criminal investigations, I believe law 
enforcement should use the same standard to search your inbox 
that they do to search files and letters in your home, but our 
current outdated law allows police to provide only a subpoena, 
issued without a judge's approval, to force service providers 
to turn over emails that have been opened or are more than 6 
months old.
    The Committee is currently considering legislation that 
would require government entities to obtain a warrant before 
having access to stored content. And I'm pleased that the 
Department of Justice and Attorney General Holder recently 
acknowledged that reform to the Electronic Communications 
Privacy Act has failed to keep up with the development of 
technology. And I wanted to know if you agree that it's time to 
reform these laws to include a warrant standard for stored 
content?
    Mr. Mueller. Well, I would agree that it's time to relook 
at these laws given the communications in terms of what the 
impact on--it would have on particular requirements in 
particular situations. I would wait to see what kind of 
legislation is proposed.
    Ms. DelBene. Do you have a proposal, what kind? Right now 
if I, you know, have a physical letter, a piece of paper in my 
home, you need a warrant. If I have an online piece of 
communication it doesn't necessarily have the same standard.
    Mr. Mueller. We'd be pleased to get back to you either by 
regular letter or by email.
    Ms. DelBene. And in terms of broader reform, in terms of 
keeping up, do you have recommendations on other reforms you 
think that we need to look at because the way that folks 
communicate now is very different than in the past? You talked 
about chat and other forms. Clearly, our laws have not kept up 
with the changes in technology, and do you have an opinion or 
ideas of how you would like to see legislation formed there?
    Mr. Mueller. We will get back to you on that with whatever 
ideas we have.
    I do think there needs to be reform. There is always 
impetus to increase the standards to get particular documents, 
but it should be done, in my mind, dependent on the attributes 
of privacy that are necessary for a particular means of 
communication or a particular piece of data relating to 
communications. If you raise a standard too high, we then do 
not get the basic information that can identify terrorists to 
the point where then we could take the additional investigative 
steps, identify the subscriber. Once we have identified the 
subscriber, identify others in that network.
    If we, as a result of that predicated level of 
investigation find that they are involved in terrorism, then 
getting a wiretap. We tend to confuse that which is covered by 
the Fourth Amendment, that which is not covered by the Fourth 
Amendment. And so as one drafts the legislation, my belief is 
that ought to be kept in mind.
    Ms. DelBene. Thank you.
    And thank you, Mr. Chair. I yield back.
    Mr. Goodlatte. The Chair thanks the gentlewoman, and 
recognizes the gentleman from Utah, Mr. Chaffetz, for 5 
minutes.
    Mr. Chaffetz. Thank you, Mr. Chairman.
    And to the Director, thank you. You have made yourself 
regularly available to this Committee, and as a Member it's 
very helpful, and we appreciate it and appreciate your service.
    I want to talk a little bit about geolocation metadata, and 
specifically the Jones case, which is a Supreme Court ruling 
where they ruled 9 to nothing that a GPS device placed on a 
vehicle for an extended period of time was an unreasonable 
search. Geolocation is broadly defined as using a GPS device or 
triangulation so that you can tell the specific whereabouts of 
where a particular phone is.
    Could you help me define what metadata is? Because what we 
have seen in the news is that the metadata category is the 
simple telephone number, where they're calling, and how long 
they're calling. Can you help me define what else is in the so-
called metadata category?
    Mr. Mueller. Well, in the case of emails, it would probably 
be header information. I think people would consider the 
adressing information----
    Mr. Chaffetz. What about--
    Mr. Mueller [continuing]. But not the subject line, for 
instance. That would not be metadata. In terms of the 
telephone, it would be that which you articulated, principally.
    Mr. Chaffetz. Would it include geolocation information?
    Mr. Mueller. That's a question I'd have to get back to you 
on. I have not thought about that.
    Mr. Chaffetz. We had submitted in advance our questions 
that we were going to ask here today in part so I could have a 
candid dialogue with you. We were very good at providing the 
questions that I was going to ask. With all due respect, sir, 
you're the Director of the FBI. You've been there for 12 years. 
You had to of think post-Jones what are the implications of the 
Jones case, what is geolocation, and how does it apply?
    Mr. Mueller. Absolutely. I mean, we have been--after the 
Jones case, we have taken--the Jones case can be applied to a 
number of ways that we utilize geolocation. In each of these 
different ways, we have taken the most conservative approach 
because you don't know what is going to be the progeny of 
Jones.
    On the particular question of whether or not geolocation is 
metadata off the top--well, I shouldn't do it off the top of my 
head. I have to make certain that I look at that one.
    Mr. Chaffetz. Is there a database of geolocation 
information that is warehoused by our Federal Government?
    Mr. Mueller. Not that I am aware of.
    Mr. Chaffetz. Post-Jones there has been guidance given by 
the Department of Justice to the FBI. I would love to see that 
information and share that. I have seen two unclassified 
documents that were through a Freedom of Information Act. Is 
that something that you can share with this Committee?
    Mr. Mueller. I'd have to look at that. But if it's 
unclassified, internal, then I'd have to look at that.
    Mr. Chaffetz. All right. I guess what I have a problem is, 
this phone right here, the Federal Government has no problem 
following this phone, who I call. If I call my 12-year old 
daughter, the telephone number I called her on, how long I had. 
But the geolocation is something that we--I have a bill that I 
have sponsored that really basically categorizes geolocation as 
content as opposed to metadata.
    So if you're going to follow what this telephone number is, 
where it is, is that or is that not content?
    Mr. Mueller. I'll tell you, I think it's a very difficult 
question, and I'd want to think about it. It can be metadata, 
it can be content, and may depend on the circumstances.
    Mr. Chaffetz. But is there a database that anybody knows of 
that----
    Mr. Mueller. I do not know of a database that specifically 
is addressed to geolocation, apart from anything else, 
investigative activity that is solely a geolocation database.
    Mr. Chaffetz. Post-Jones, does the FBI believe that there 
should be a lower or different standard for law enforcement to 
access geolocation information from smart phones or other 
mobile devices than the standard for attaching tracking devices 
to cars under Jones?
    Mr. Mueller. I'd have to get back to you on that. I 
apologize. I can see you gave me the questions, and I did not 
get briefed on. It's my own fault for getting briefed on the 
questions so I'm better able to answer them.
    Mr. Chaffetz. I appreciate it.
    And, Mr. Chairman, it's terribly disappointing to come to 
this point, talk about something that is in the headlines of 
every newscast. I gave the questions in advance.
    Mr. Mueller. And they noted that I would be asked on that, 
I might add. So it's my fault.
    Mr. Chaffetz. Your staff did some great work, I guess, but 
it's terribly frustrating, sir. You're the head of the FBI. 
You're the Director of the FBI. This is an important discussion 
and dialogue. And I know I won't get an answer and that's the--
--
    Mr. Mueller. I will be happy to meet with you after I have 
had a chance to review the questions that you have and the 
answers that you need.
    Mr. Chaffetz. What would be a reasonable timeframe for me 
to start to call and say, hey, where is this information?
    Mr. Mueller. A week.
    Mr. Chaffetz. Okay. I appreciate it. Thank you, sir.
    Yield back.
    Mr. Goodlatte. I thank the gentleman.
    And we will again reinforce our urging that these questions 
be answered as promptly, and in this case a meeting take place 
with the gentleman from Utah. He has a very good issue that 
needs to have your input.
    And the Chair now recognizes the gentleman from New York, 
Mr. Jeffries, for 5 minutes.
    Mr. Jeffries. I thank the distinguished Chair.
    And I also want to thank the Director for your presence 
here today and certainly for your service to this great 
country.
    Edward Snowden has been characterized by many, as a villain 
by some. His actions have been called courageous or heroic. 
It's not my place, I believe, to characterize him one way or 
the other. A court of law, hopefully, will assist in coming to 
a conclusion as to what took place in accordance or in 
violation of our laws.
    But it is clear that he has become a lightning rod that has 
sparked what I think is a very important debate in this country 
that we in the Congress should have as to the proper balance 
between legitimately held security concerns and concerns for 
privacy and liberty which are essential to the preservation of 
our democracy. And so in that spirit, just wanted to get a 
sense of some of the particulars, to the extent that you can 
discuss them in an open Committee hearing, related to the 
recent 215 acquisition of information connected to the Verizon 
metadata.
    Now, presumably, that was acquired based on a conclusion by 
yourself, the FBI, the Department of Justice, other relevant 
actors, that the metadata for all Verizon customers in the 
United States of America and beyond for a 3-month period was 
relevant to a counterterrorism investigation or to foreign 
intelligence acquisition. Is that correct?
    Mr. Mueller. If you're talking about the relevance and the 
finding of relevance, I'd really have to defer you to the FISA 
Court. But yes, there is an order that had been issued--and I 
might add, it's just one piece of the order, there are other 
aspects of it--that deemed that this information that was 
accumulated satisfies the relevance standard in the statute.
    Mr. Jeffries. Right, in order for the FBI to come to the 
conclusion that it can legitimately pursue this information, I 
presume that you also have to conclude that it's relevant 
information. Is that right?
    Mr. Mueller. Yes, for access to this information, it's 
very, very limited. There has to be a showing of the 
reasonable, articulable suspicion that the number that you are 
seeking to search for is associated with terrorism. And there 
is a very limited search of the data that is done to answer 
that particular question. And that process satisfies the 
relevance standard under the FISA Court.
    Mr. Jeffries. Now, once you pursue information based on 
that reasonable suspicion standard, what is the process for 
attempting to acquire content information connected to that 
metadata, presumably on a forward-looking basis?
    Mr. Mueller. Well, if you want to get additional 
information relating to that particular telephone number, you 
would have to get additional legal process. For instance, 
subscriber information. If you ultimately wanted to obtain a 
wire interception, then there are additional legal processes 
that you have to go through.
    Mr. Jeffries. Now, under the general relevance standard is 
it fair to say that it would be the FBI's position that this 
type of metadata information should also be made available 
pursuant to a court decision if it's sought connected to other 
service providers beyond Verizon?
    Mr. Mueller. Well, I can't talk to the specifics of the 
program.
    Mr. Jeffries. Okay. Is there anything that you can say as 
it relates to why Verizon was deemed or Verizon users were 
deemed particularly relevant in such a broad way as it relates 
to every single user over a 3-month period of time across the 
country of more than 300 million people?
    Mr. Mueller. Well, again, it goes into the details of the 
program that I can't get into in open session. I don't know 
whether they got into this when you had the classified session 
on Tuesday, but in open session it would be difficult for me to 
respond.
    Mr. Jeffries. Okay. Well, thank you. I respect that.
    Switching topics, in terms of the sequestration impact that 
it's had on the FBI, recently, I think the FBI has increased 
its efforts connected to illegal piracy in the intellectual 
property space.
    Mr. Mueller. Yes.
    Mr. Jeffries. That's an important step that you've taken. 
Piracy impacts, obviously, commerce and our economy in 
increasingly significant ways. Are those FBI efforts impacted 
in any adverse way connected to your increased enforcement 
efforts in the intellectual property space?
    Mr. Mueller. I don't think this year. Next year they will 
be. They will be impacted.
    Mr. Jeffries. They have been impacted this calendar year?
    Mr. Mueller. Across the board, my expectation is we have to 
consider rather dramatic and drastic reductions across the 
board.
    Mr. Goodlatte. The time of the gentleman has expired.
    Mr. Jeffries. Thank you.
    Mr. Goodlatte. The Chair recognizes the gentleman from 
Texas, Mr. Poe, for 5 minutes.
    Mr. Poe. Thank you, Mr. Chairman.
    I'm way over here, Director. I want to talk about a 
constituent from Houston, Texas, named Catherine Engelbrecht. 
In July of 2010, she and her husband, business owners, started 
two groups, a nonprofit--hoping to be a nonprofit group--True 
the Vote and King Street Patriots. December of 2010, the FBI 
Domestic Terrorism Unit inquired about their attendees. January 
of 2011, the FBI Domestic Terrorism Unit inquired about one of 
their attendees. January of 2011, Catherine Engelbrecht 
Enterprises were audited for 2008 and 2009. January of 2011, 
True the Vote, IRS questions their nonprofit application. That 
was the first round.
    March of 2011, the IRS questions--excuse me, May of 2011, 
King Street Patriots were visited by--rather members of King 
Street Patriots went to the FBI after their request about 
questions, how are they doing, anything you need to tell us or 
report. October of 2011, True the Vote, IRS questions their 
application. They wanted to know who their Facebook people 
were, all of their tweets, who they were tweeting to, wanted 
personal knowledge about their family, every place they had 
ever spoken--this is Catherine--every place she intends to 
speak, who they were speaking to, the names of the 
participants, copies of transcripts, everywhere they intended 
to speak, and they asked about 300 questions, including who is 
doing the training, what are the backgrounds of the trainers. 
And then they ask who your lawyers were and the background of 
the lawyers that represented them and the qualification of the 
lawyers, et cetera. I will furnish you the 300 questions, Mr. 
Director.
    Three more visits by mail, or by rather phone by the FBI, 
June, November, and December to the King Street Patriots. And 
then the IRS in February of 2012 questions the nonprofit status 
again of True the Vote. This was the third round.
    At that time, I sent to your office--excuse me, the 
Department of Justice--an inquiry saying, is this group, these 
people under investigation for criminal offenses? I get a 
letter back from the Justice Department that says, they are not 
under criminal investigation. But it continues. They were 
visited later by the ATF. They were visited by OSHA, they were 
visited by TCEQ. They were visited again by the IRS, fourth 
round.
    All of these IRS questions are coming from Cincinnati, and 
they get finally another question from the IRS from Utah. That 
was in March of this year. April of this year, here comes the 
ATF again, another unscheduled visit to their business.
    Now, I have read the civil rights law. It's important, and 
you have a Civil Rights Division in the FBI to enforce civil 
rights violations. The way I understand the law, you can't 
target a certain group because of their beliefs. The IRS has 
already said, we targeted--some people in the IRS--has already 
targeted certain tea party groups because they were tea party 
groups.
    My question, without going into details, my question, in a 
hypothetical case, IRS targeting groups with this information 
that you have seen there inquired about, ironically, four 
different agencies all inquiring about a group for over several 
years, does that appear to be something that if a complaint was 
filed with the FBI, the FBI would investigate as a civil rights 
violation?
    Mr. Mueller. Sir, I think that's part of the--would be part 
of the ongoing investigation, I should say--of the 
circumstances relating to the IRS that was initiated a number 
of weeks ago. My expectation is this would be a piece of that 
investigation.
    You also indicate, though, that FBI agents visited these 
individuals. I will go back and look at the predication for 
that particular visit ourselves to follow up on that aspect of 
it to the extent that these persons were paid visits by the 
Bureau.
    Mr. Poe. All right, thank you, Mr. Director.
    I yield back my time. Thank you.
    Mr. Goodlatte. The Chair thanks the gentleman, and 
recognizes the gentleman from South Carolina, Mr. Gowdy, for 5 
minutes.
    Mr. Gowdy. Thank you, Mr. Chairman.
    Director, I want to thank you for your service to our 
country in the military as a prosecutor and as a law 
enforcement officer.
    I wanted to touch on three different areas. I want to start 
with the Rosen affidavit because it states, in pertinent part, 
there is probable cause to believe that a reporter has 
committed a violation of the Espionage Act--and this is the 
phrase I want to focus on--at the very least, either as an 
aider and abetter and/or a co-conspirator. If the standard is 
probable cause, why in the world would the affiant add the 
phrase, at the very least, if they weren't contemplating a 
prosecution?
    Mr. Mueller. I don't know why the person would have added 
those, that statement.
    Mr. Gowdy. Well, you were a very distinguished Federal 
prosecutor. I was not at all distinguished, but I was a 
prosecutor. I don't remember ever adding surplusage, extra 
wording, to an application for a search warrant. So I am vexed 
by why the affiant would say, at the very least.
    Mr. Mueller. I just don't know.
    Mr. Gowdy. Also in the application for search warrant they 
requested a nondisclosure order citing the five different 
reasons. Now, it was my experience and I assume yours that the 
affiant is under oath when they appear before a judge.
    Mr. Mueller. Yes.
    Mr. Gowdy. Do you know which of the five categories that 
would need to be shown for a nondisclosure order was testified 
to in this case, which of the five reasons statutorily that you 
can seek a nondisclosure order were at play?
    Mr. Mueller. I'm not that familiar with the facts to be 
able to answer that.
    Mr. Gowdy. But you would agree with me that when you're 
before a judge and you're swearing out your affidavit, if you 
ask for a nondisclosure order you have to have some evidence 
that one of those five factors is in play?
    Mr. Mueller. Well, I am not all that familiar with the 
statute. I will say that when you file an affidavit everything 
in there ought to be accurate and you ought to be prepared to 
swear to every item in that.
    Mr. Gowdy. Do you ever recall discussing the Rosen 
investigation with the Attorney General?
    Mr. Mueller. No.
    Mr. Gowdy. Well, let me ask you this. If the affiant said 
at the very least there is probable cause to believe a crime 
has been committed, was there a discussion of indicting Rosen?
    Mr. Mueller. Not that I had.
    Mr. Gowdy. If you had more than probable cause why would 
there not be discussion of indicting?
    Mr. Mueller. Well, there may have been discussion, as you 
well know, with the Assistant United States Attorney and the 
agent in terms of what went in the affidavit. You have done any 
number of, hundreds probable of affidavits yourself, and the 
discussion between the lawyer and the agent is for the lawyer 
to get what the agent knows in the course of the investigation, 
can get it written up so that you can get the approvals that 
you need. I'm sure that happened here. It did not come up, does 
not come up to my level to have that kind of discussion.
    Mr. Gowdy. All right. So it is fair to say that you were 
not part of any conversations with respect to whether or not 
something along the lines of an indictment should be considered 
for the reporter, but you do not know whether or not the 
conversations took place. But you yourself were not part of 
them.
    Mr. Mueller. I was not and had not.
    Mr. Gowdy. Okay. Does the Bureau have a policy with respect 
to shopping judges or not shopping judges? If you go to a 
magistrate or you go to an Article 3 judge and you're denied, 
is there a policy within the Bureau on judge shopping?
    Mr. Mueller. No. Not that I'm aware of.
    Mr. Gowdy. All right, let me switch gears. There was an 
allegation this week of American diplomats being involved in 
the alleged solicitation of prostitution overseas. Would the 
Bureau have jurisdiction to investigate that?
    Mr. Mueller. Have to look at that. Initially, I would say--
well, I'd have to look at it. I'd say no, but there may be, off 
the top of my head, maybe I am missing something. I have to get 
back to you on that.
    Mr. Gowdy. If there were an allegation that the State 
Department attempted to interfere with or influence the 
investigation, is that something the Bureau would have 
jurisdiction over?
    Mr. Mueller. In the first instance, I'm not certain. We 
may. Going back to the question about the activities overseas, 
if it implicated the disclosure of U.S. secrets, for instance, 
then we would have, perhaps, some predication for being 
involved in the overarching investigation. As to the second 
question, I just can't say.
    Mr. Gowdy. I've been out of the business for a while, but I 
think it may be a crime to travel for the purpose of soliciting 
underaged sex. I could be wrong about that.
    Mr. Mueller. Underage, yes. I do believe that that would be 
covered. But I have to check on that.
    Mr. Gowdy. All right.
    Mr. Mueller. Like you, I have not done this work for some 
time.
    Mr. Gowdy. Yes, sir. All right. Finally, with respect to 
Benghazi, and this is not a trick question, I think the answer 
is obvious, the quicker you get to a crime scene, the better 
you're going to be able to investigate it and process it, 
right?
    Mr. Mueller. Absolutely.
    Mr. Gowdy. All right. And the Bureau did not get to the 
crime scene in Benghazi for how long?
    Mr. Mueller. I think 2 weeks.
    Mr. Gowdy. And why did the Bureau not get to the crime 
scene in Benghazi for 2 weeks?
    Mr. Mueller. There were a number of factors, and the first 
one relates to the state of security in Benghazi. There was no 
security.
    Mr. Gowdy. All right, I want to just stop you there because 
I want to ask one more question and my time is out. I am asked 
all the time back home in South Carolina, if Benghazi was not 
safe enough for the premier law enforcement agency in the world 
to go, how was it safe enough for us to send diplomats?
    Mr. Mueller. That's another question that is not in my 
bailiwick. I understand the question is being asked. I presume 
it is a rhetorical question.
    Mr. Gowdy. It is rhetorical unless you know the answer. I 
can't answer it. I don't know.
    Mr. Mueller. All I am saying is, rhetorical or not, I can't 
answer.
    Mr. Goodlatte. It is a good question, but the time of the 
gentleman has expired.
    Mr. Gowdy. Thank you.
    Mr. Goodlatte. And we will look for opportunities to ask it 
again.
    And the Chair now recognizes the gentleman from Georgia, 
Mr. Collins, for 6 minutes.
    Mr. Collins. Mr. Director, I appreciate you being here, and 
I appreciate--by the time we get to this, there are sometimes 
rhetorical questions that seem to pop their heads up. And I 
think this question, my friend from South Carolina brings a 
very good point. There are things that people out in the world 
look at and they see, and they are honest, hard-working folks, 
and they look at these things and they say, this doesn't make 
sense. And I think it just attributes to the disconnect that 
many times happens with the folks who get up and go to work 
every morning, and they look on their TV and they see what is 
happening up here, and they say it just doesn't pass the smell 
test. And I think that's some of the things that we're 
concerned about.
    But I want to go in a different direction. We've covered 
the gamut. Our country wants to be safe. The people in the 
Ninth District, they want to know that their government is 
watching out for them. They want to know that there is sharing, 
legal sharing, and not overreach, but legal work that is hard 
work between police and law enforcement agencies and the 
Justice Department.
    My father was a state trooper for 31 years in Georgia. I 
get it. But there needs to be a balance in there. So there is a 
program called the Joint Regional Intelligence Group, and I 
want to switch gears here. The Director of National 
Intelligence issued a directive establishing the Joint Regional 
Intelligence Group pilot program. The purpose of this program 
will be to coordinate information sharing between foreign and 
domestic intelligence communities.
    We have been hearing from State and local law enforcement 
that the FBI has largely taken control of standing up the pilot 
program and that they have been excluded. Is that the case, or 
is that your understanding of what is going on right now?
    Mr. Mueller. And who would be excluded?
    Mr. Collins. The State and locals feel like they're being 
excluded here.
    Mr. Mueller. This issue I think we've addressed in terms of 
the regional intelligence centers. I know there was some 
concern at some point that this is a new vehicle. We have, I 
think, explained sufficiently to State and local law 
enforcement that this is not anything new. It's a greater 
integration of the intelligence capacity around the country.
    Mr. Collins. So you're saying this is an existing program 
and what the Director of National Intelligence is saying is not 
new?
    Mr. Mueller. Well, I'm not certain exactly which program 
the Director of National Intelligence is talking about. I 
thought you said regional----
    Mr. Collins. The Joint Regional Intelligence Group.
    Mr. Mueller. Joint Regional Intelligence, yes. It certainly 
includes State and local law enforcement and there are various 
parts of that particular undertaking, and you have to 
differentiate between the various parts of that undertaking. 
For instance, part of it is the role of our special agents in 
charge is being in the various divisions or districts as being 
in charge and being the person who is in charge for 
intelligence collection, or coordination, I should say, under 
the ODNI.
    Mr. Collins. Okay, so and again, the understanding here, 
tell me a little bit more about this program. Maybe we're 
talking about the same program, maybe we're not. Because this 
seemed to be more of a pilot program which would mean that it 
was more--it was either integrating stuff that was already 
there or starting something from you that may have been. Where 
is this being located out of?
    Mr. Mueller. Well, I guess I am confused in terms of 
specifically what programs you're talking about under the ODNI. 
I would be happy to get back to you----
    Mr. Collins. Okay.
    Mr. Mueller [continuing]. Specifically on this, as I can 
read it, and assimilate it.
    Mr. Collins. All right. In light of that--and we'll move on 
and I appreciate you getting back to me about those questions--
a lot has been said about the Electronic Communications Privacy 
Act. We sort of danced around a little bit of that. As you're 
sort of in your last little bit here, I want to sort of open 
this up and say, is it out of date? Would it be helpful for law 
enforcement to have a clear standard of collection? And if so, 
what do you believe that would be?
    Mr. Mueller. Well, yes, I do think it is outdated. It does 
need review. As I indicated before, I would caution against 
raising standards for obtaining basic non-Fourth Amendment 
information because you eliminate much of the data that 
provides predication for further investigation. And so as one 
looks at it, I would look at it to be updated, but also I have 
some concern about raising standards, which would impact on our 
ability to conduct cases, whether it be terrorism or otherwise.
    Mr. Collins. Well, as I have a law professor who's 
basically lamented many times on the demise that there was even 
a Fourth Amendment even existing today in light of a lot of 
things in cases that have been going on. Is there a way though 
that we balance this in a new age and environment, in which it 
seems to be metadata? We call it these things where it's 
collection, but we're collecting on such large scales in this 
electronic life. We've got a pretty hard line to focus here in 
which we are protecting civil liberties yet giving access where 
need be, where I think people would understand there would be a 
reason to investigate.
    Mr. Mueller. I do think that given the new technology, the 
ability to communicate in any number of ways, that the statute 
needs to be upgraded.
    The concern comes, you can identify terrorists by looking 
at substantial accumulations of non-Fourth Amendment protected 
data. And in the case of a terrorist who wants to undertake an 
attack to kill Americans, it may well be worth that balance. On 
the other hand, what you want to protect against is abuse of 
that collection of data.
    Mr. Collins. And that hits. And the concern I have had--and 
our time is done, but the quick question--depending on many-
year-old court decisions on what is, quote, ``metadata'' and 
what is protected, I'm concerned that we're in a situation now 
to where some of the older rules of things that didn't 
understand this kind of technology may be balanced in a way 
that we're going to have to look at it differently. Instead of 
saying, well, it's always been okay under these circumstances, 
and now try to apply it. Now, I think we may be trying apples 
and oranges, and I think people are concerned about that.
    Thank you, though, for your service. Thank you for being 
here to answer the questions.
    And I yield back.
    Mr. Goodlatte. The Chair thanks the gentleman.
    The gentleman from Idaho, Mr. Labrador, is recognized for 5 
minutes.
    Mr. Labrador. Thank you.
    Thank you, Director, for being here, and thank you for your 
service.
    I was a criminal defense attorney, and I'm a little bit 
confused by the answer from the Administration about the Rosen 
investigation. It seems to me that how many times as an FBI 
Director, or as an attorney, or in your law enforcement 
practice, have you had the opportunity to investigate somebody 
who you did not intend to prosecute?
    Mr. Mueller. Well, as I said before, that happens all the 
time, I mean.
    Mr. Labrador. No, the question is--I want to be very 
specific about this. Not that you don't prosecute after the 
investigation, because that is the purpose of the 
investigation, is to find out if you need to prosecute 
somebody, but to actually look into people's private 
information, private communications who you don't intend to 
prosecute.  Do you understand my specific question?
    Mr. Mueller. I think I do, but I think we're maybe on--
we're passing each other, because you can--it can be a husband 
and wife team that are avoiding taxes.
    Mr. Labrador. Correct.
    Mr. Mueller. At the outset you have probable cause to 
believe that the wife was----
    Mr. Labrador. Yeah, but you have probable cause to believe 
that they are both committing a crime. And then you determine 
after the investigation that one committed the crime and one 
did not commit the crime, right?
    Mr. Mueller. That's an option, yes.
    Mr. Labrador. So tell me how often a prosecutor 
investigates somebody who is not intended to be prosecuted, 
that they don't intend at any time to file charges. Because it 
seems to me that's much broader than the Fourth Amendment. If 
that's what prosecutors are doing, then you're going beyond the 
extent of the Fourth Amendment.
    Mr. Mueller. You're a defense counsel, you know the 
dialogue between defense counsel and the prosecutor as to 
whether or not the person is going to be prosecuted in terms of 
testimony.
    Mr. Labrador. Correct.
    Mr. Mueller. We make the decision day in and day out, and 
we are not going to prosecute a particular person if they 
cooperate with us. Now, often it'll be we will investigate him 
for a period of time, then make a decision the person is better 
as a cooperator, and consequently we have no thought about 
prosecuting him. We want their testimony.
    Mr. Labrador. But what this Attorney General said and what 
you have said is that Mr. Rosen was never intended to be 
prosecuted. I have never heard of an investigation, ever, where 
you went after an individual when there was no intention to 
find out if that person was going to be prosecuted. And that's 
what I am having a hard time with.
    Mr. Mueller. I am not certain I said that because I was not 
in that position to make that determination.
    Mr. Labrador. Well, that's what the Attorney General said 
in this Committee. He said that there was never an----
    Mr. Mueller. I'd have to go back and look specifically at 
what the Attorney General said.
    Mr. Labrador. But wouldn't you think that would be 
inappropriate then, to go after somebody that you don't intend 
to ever prosecute, because that has been the excuse of this 
Administration. I'm having a hard time with that excuse.
    Mr. Mueller. I'd have to give thought about that, but I do 
think there are a number of occasions as a prosecutor where we 
have the ability, the capability, and maybe the intent at the 
outset, and then we make a determination, for whatever reasons, 
whether we want the cooperation or other things, where we make 
a determination that we're not going to go forward.
    Mr. Labrador. And I agree with you.
    Mr. Mueller. And there are competing interests.
    Mr. Labrador. When you make a determination after the 
investigation has occurred. But the problem with the Rosen 
subpoena, and the problem that we had with this investigation, 
is that Mr. Rosen was never intended to be prosecuted, 
according to the Attorney General. So this was a fishing 
expedition, something that I think went beyond the Fourth 
Amendment, which wasn't necessary. And that's why they had to 
go around shopping for different judges who would actually 
approve of this subpoena.
    Mr. Mueller. Well, I don't perceive it as being a fishing 
expedition at all. As I indicated previously, in these 
investigations you focus on, we, the FBI, focus on the leaker 
from the Federal Government. That's the person who we want to 
identify and to ultimately prosecute. To do that we have to 
show that the information went from this person to the person 
who ultimately published it. And as part of the investigation, 
you gather facts in terms of how that information got from the 
individual who had the security, or had the----
    Mr. Labrador. But when you go to the judge, you tell the 
judge that you are intending to prosecute this person, or this 
person has violated the law in some way, or you have reasonable 
suspicion to believe that this person has violated the law. How 
often have you as a law enforcement officer submitted a 
subpoena to a judge saying that somebody--you suspect somebody 
violated the law when you had no intention to ever prosecutor 
that person, you didn't think that your investigation was going 
to lead to the prosecution of that person?
    Mr. Mueller. I have to think about it. Under those 
circumstances, the way you say them, I have to think about it.
    Mr. Goodlatte. Would the gentleman yield?
    Mr. Labrador. Yes.
    Mr. Goodlatte. I thank the gentleman, because he is asking 
a very important line of questions and I would ask him if he 
would allow me to ask this question.
    If the allegations made in that case with regard to Mr. 
Rosen violating the Espionage Act, saying that he was--that 
there was probable cause to find that he was not--he was at 
least an aider, abetter, or co-conspirator in violation of the 
Espionage Act, later said that he was a flight risk, and you 
asked that the record be sealed for 18 months, if those indeed 
were the facts, if those indeed were the case, why wouldn't you 
prosecute the individual?
    Mr. Mueller. There may be other competing interests.
    Mr. Goodlatte. Like what?
    Mr. Mueller. The First Amendment.
    Mr. Goodlatte. What's that?
    Mr. Mueller. The First Amendment. There can be other 
competing interests. The First Amendment.
    Mr. Goodlatte. Okay, but that just goes right back to the 
question asked by the gentleman from Idaho. If the First 
Amendment, which I think is of paramount importance here, is 
indeed that consideration, then why would it be appropriate to 
go before the court, before the judge, and say all of these 
things about the individual in order to get a search warrant to 
go through his email records without his knowledge?
    Mr. Mueller. I'm not familiar----
    Mr. Goodlatte. If you're not going to prosecute him, why 
not tell him? Why not tell him?
    Mr. Mueller. I am not that familiar with the discussions 
that went on, first of all, at the level of the Assistant 
United States attorney and the agent who was on it, or as it 
went through the Department of Justice.
    Mr. Goodlatte. Thank you.
    I thank the gentleman for yielding. And I'll yield him an 
additional minute if he wants to pursue the question.
    Mr. Labrador. Thank you. Mr. Chairman, you have asked my 
questions.
    Thank you very much for being here.
    Mr. Goodlatte. Now, this concludes the hearing today. 
Director, we thank you. You have given us more than 3 hours of 
your time. You have answered a lot of questions, a lot of 
difficult questions, and we very much appreciate that. I will 
join all of my colleagues and I think virtually every one of 
them thanked you for your service. If they did not, I'm sure it 
is because they neglected to do so. You have a remarkable 
record as Director of the FBI. I do think there are some 
questions here that remain that you were not able to answer. We 
will submit questions to you in writing. And I think you have 
made a few commitments yourself to do that. We would find that 
very important to have those additional pieces of information.
    And without objection, all Members will have 5 legislative 
days to submit additional written questions for the witness or 
additional materials for the record.
    And with that, with our thanks again, the hearing is 
adjourned.
    [Whereupon, at 1:10 p.m., the Committee was adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
